<html>
<title> - H.R. 295, H.R. 670, H.R. 991, H.R. 1160, AND H.R. 1670</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        H.R. 295, H.R. 670, H.R. 991, H.R. 1160, AND H.R. 1670 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 12, 2011

                               __________

                           Serial No. 112-30

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-361 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 







                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
















  

                                CONTENTS
                                --------                              
                                                                   Page

Hearing held on Thursday, May 12, 2011...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     6
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     5
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Flocken, Jeffrey, D.C. Office Director, International Fund 
      for Animal Welfare.........................................    27
        Prepared statement on H.R. 991...........................    28
    Gould, Hon. Rowan, Acting Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................    13
        Prepared statement on H.R. 670, H.R. 991, H.R. 1160......    14
    Kissell, Hon. Lawrence Webb, ``Larry,'' a Representative in 
      Congress from the State of North Carolina..................     7
        Prepared statement on H.R. 1160..........................     8
    Lowell, Capt. John E., Jr., Director, Office of Coast Survey, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................    18
        Prepared statement on H.R. 295...........................    20
    Myers, Gordon, Executive Director, North Carolina Wildlife 
      Resources Commission.......................................    23
        Prepared statement on H.R. 1160..........................    24
    Smith, Steve, Member, Dallas Safari Club.....................    32
        Prepared statement on H.R. 991...........................    33

Additional materials supplied:
    Hallford, Butch, TerraSound Limited, Letter submitted for the 
      record on H.R. 295.........................................    10
    Humane Society of the United States, Statement submitted for 
      the record on H.R. 991.....................................    35
    Palatiello, John M., MAPPS Executive Director, Management 
      Association for Private Photogrammetric Surveyors, Letter 
      submitted for the record on H.R. 295.......................    11
    Wardwell, Nathan, and John Oswald, PLS, JOA Surveys, LLC, 
      Letter submitted for the record on H.R. 295................    12
LELGISLATIVE HEARING ON H.R. 295, TO AMEND THE HYDROGRAPHIC 
SERVICES IMPROVEMENT ACT OF 1998 TO AUTHORIZE FUNDS TO ACQUIRE 
HYDROGRAPHIC DATA AND PROVIDE HYDROGRAPHIC SERVICES SPECIFIC TO 
THE ARCTIC FOR SAFE NAVIGATION, DELINEATING THE UNITED STATES 
EXTENDED CONTINENTAL SHELF, AND THE MONITORING AND DESCRIPTION 
OF COASTAL CHANGES; H.R. 670, TO CONVEY CERTAIN SUBMERGED LANDS 
TO THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS IN ORDER TO 
GIVE THAT TERRITORY THE SAME BENEFITS IN ITS SUBMERGED LANDS AS 
GUAM, THE VIRGIN ISLANDS, AND AMERICAN SAMOA HAVE IN THEIR 
SUBMERGED LANDS; H.R. 991, TO AMEND THE MARINE MAMMAL 
PROTECTION ACT OF 1972 TO ALLOW IMPORTATION OF POLAR BEAR 
TROPHIES TAKEN IN SPORT HUNTS IN CANADA BEFORE THE DATE THE 
POLAR BEAR WAS DETERMINED TO BE A THREATENED SPECIES UNDER THE 
ENDANGERED SPECIES ACT OF 1973; H.R. 1160, DIRECTS THE 
SECRETARY OF THE INTERIOR TO CONVEY THE McKINNEY LAKE NATIONAL 
FISH HATCHERY IN RICHMOND COUNTY, NORTH CAROLINA, TO THE STATE 
OF NORTH CAROLINA TO BE USED BY THE NORTH CAROLINA WILDLIFE 
RESOURCES COMMISSION AS A COMPONENT OF THE FISH AND WILDLIFE 
MANAGEMENT PROGRAM OF THE STATE. ``McKINNEY LAKE NATIONAL FISH 
HATCHERY CONVEYANCE ACT''; AND H.R. 1670, TO AMEND THE SIKES 
ACT TO IMPROVE THE APPLICATION OF THAT ACT TO STATE-OWNED 
FACILITIES USED FOR THE NATIONAL DEFENSE. ``SIKES ACT 
AMENDMENTS ACT''.
                              ----------                              


                         Thursday, May 12, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

    The Subcommittee met, pursuant to call, at 11:00 a.m. in 
Room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Flores, Landry, Sablan, and 
Bordallo.
    Also present: Representative Garamendi.

STATEMENT OF HON. DON YOUNG, THE REPRESENTATIVE IN CONGRESS FOR 
                           ALL ALASKA

    Mr. Young. The Subcommittee will come to order. Today, we 
will have a hearing on five bills. There is a quorum present, 
and these are five pretty noncontroversial issues, especially 
mine are not controversial. The other ones really could be, but 
they are not.
    The first one is H.R. 295, the Hydrographic Services 
Improvement Act. The second one will be on H.R. 991, and this 
is for the importation of polar bear hides that were shot 
legally on time, paid for, and now they are in a freezer, and 
our government says they cannot be imported back in.
    There will be those who say they should not be, but I 
cannot understand for the life of me why they figure that by 
leaving bear hides in a freezer that it is conservation. So we 
will be hearing about that one.
    And, of course, we have another bill, H.R. 670, by my good 
friend, Ranking Member Sablan, concerning the Northern Mariana 
Islands, and I believe that this is a noncontroversial bill.
    And we will have another bill by my good friend from Guam, 
Ms. Bordallo, and I believe that is about it. I may have missed 
one. But anyway--just hang on. We will get this one going.
    Oh, H.R. 1160, and that will be one that we will address, 
and again I believe that this is one bill that we have worked 
on before, a typed bill, and we will do it again. With that, we 
will now hear from Mr. Sablan.
    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, Acting Chairman, Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs, on H.R. 295, H.R. 670, 
                   H.R. 991, H.R. 1160 and H.R. 1670

    The Subcommittee will come to order. The Chairman notes the 
presence of a quorum.
    Good morning. Today the Subcommittee will hear testimony on five 
legislative proposals. The first two bills are measures that I have 
introduced, let me briefly explain them.
    H.R. 295 would amend the Hydrographic Services Improvement Act to 
authorize hydrographic surveys and Continental Shelf mapping of the 
Arctic region. The Arctic region lacks up-to-date survey data, with the 
last major hydrographic survey activity having occurred more than 60 
years ago, after World War II. H.R. 295 is an effort to move this 
process forward, I understand the National Oceanic and Atmospheric 
Administration will testify that they have this authority; however, I 
believe this bill is necessary to emphasize the need for the agency to 
collect hydrographic data and provide hydrographic services in the 
Arctic region.
    We are also hearing testimony today on H.R. 991. This legislation 
would allow 41 hunters to import their polar bear trophies into the 
U.S. after paying the required permit fee.
    Prior to the listing of the polar bear on the Endangered Species 
Act, hunters could a hunt a polar bear from an approved Canadian polar 
bear population and import their trophy into the U.S. From 1997 through 
2008, 969 hunters hunted in Canada bringing in $969,000 in permit fees 
which funds conservation activities for the shared U.S.--Russia polar 
bear population. Once the bear was listed as threatened under the 
Endangered Species Act and depleted under the Marine Mammal Protection 
Act, hunters were prohibited from importing legally harvested polar 
bear trophies.
    I want to stress that the prohibition on bringing these trophies 
into the U.S. is not providing any conservation value to the Canadian 
polar bear populations. The intent of H.R. 991 is to allow only those 
legally taken trophies to be imported into the U.S. and the permit fee 
to fund conservation activities for the shared U.S.-Russia polar bear 
population, which, I might add, does not get funding from any other 
sources.
    There are detractors today, as there were in 1994, who are opposed 
to amending the Marine Mammal Protection Act to allow for the 
importation of polar bear trophies from Canada and refer to the 
language as a ``loophole''.
    There will always be a sector of the population that believes we 
should not kill animals; however, we need to keep in mind that there 
are still areas of the world that rely on the natural resources around 
them and still subsist on these resources. Some may like to believe 
that if U.S. hunters are prohibited from importing their trophies into 
the U.S., polar bear hunting will end. That is far from the truth.
    It is important to remember that these polar bear sport hunts in 
Canada support small, remote Native villages in Canada. Hunters pay up 
to $50,000 for the hunt itself and will leave with only the hide of the 
bear. The Native village benefits again from the hunt by retaining all 
of the meat from the taken bear.
    Most of the Canadian polar bear populations are healthy and well 
managed. While the world-wide polar bear population is listed as 
threatened, its population numbers are currently healthy with an 
estimated population of 23,000 bears. Sport hunting activities provide 
important incentives and support remote Native villages and important 
conservation programs in Canada, the U.S. and Russia.
    Finally, let me again be clear there is no conservation value in a 
dead bear that is held in cold storage in Canada. Those who legally 
hunted and harvested polar bears fully complied with all U.S. and 
Canadian laws in place at the time. In most instances, these hunts were 
years in the planning and savings were set-aside to book this ``once in 
a lifetime experience''.
    I will now move on to the next bill, our distinguished Ranking 
Member, Mr. Sablan, sponsored H.R. 670, a bill which will give the 
Commonwealth of Northern Mariana Islands jurisdiction over submerged 
lands out to 3 nautical miles. After reading the history on this issue, 
the legislation seems long overdue, the territories of Guam, America 
Samoa and the U.S. Virgin Islands have had jurisdiction over their 
submerged lands out to 3 nautical miles since 1974. It is time for the 
Mariana Islands to have this same authority.
    The Subcommittee will also hear testimony on H.R. 1160, the 
McKinney Lake National Fish Hatchery Conveyance Act. This proposal 
introduced by our colleague from North Carolina, Congressman Larry 
Kissell, would transfer title to 422 acres of land, including 23 
production ponds, from the Fish and Wildlife Service to the North 
Carolina Wildlife Resources Commission.
    The Commission has been effectively managing this property since 
1998 under a Memorandum of Understanding with the Service and they have 
been providing anglers with 150,000 channel catfish each year. In fact, 
this Subcommittee has previously conveyed ten National Fish hatcheries 
to States and municipalities and there are currently 11 additional 
hatcheries which are owned by the federal government but managed by 
various states.
    Finally, last but certainly not least, we will hear testimony on 
H.R. 1670, the Sikes Act Amendments Act. This bill introduced by the 
distinguished former Chairwoman of this Subcommittee, my good friend, 
Congresswoman Madeleine Bordallo, which was referred to both this 
Committee and House Armed Services. Under this measure, 47 State-owned 
Army National Guard installations would be required to implement an 
Integrated Natural Resources Management Plan as articulated in the 
Sikes Act of 1960 in coordination with the Department of Defense and 
the Fish and Wildlife Service.
    I understanding that many of these State-owned facilities, 
including the Stewart River Training Site in my Congressional District, 
have already implemented comprehensive natural resource plans. 
Nevertheless, this requirement will provide for a uniform system and 
will give certain assurances to State installation commanders as to how 
they can utilize their training lands in the future.
    I look forward to hearing the testimony on these proposals. I am 
now pleased to recognize our Ranking Democratic Member from the 
Commonwealth of Northern Marianas, Congressman Sablan, for any 
statement he would like to make.
                                 ______
                                 

 STATEMENT OF GREGORIO SABLAN, A DELEGATE IN CONGRESS FROM THE 
                    NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you, Chairman Young. I look forward to 
hearing about the various bills before us today. I also want to 
welcome my colleague and friend, the distinguished gentleman 
from North Carolina's Eighth Congressional District, 
Congressman Kissell, to testify on his bill, H.R. 1160, the 
McKinney Lake National Fish Hatchery Conveyance Act.
    Today, we will also hear testimony on two bills being 
introduced by Chairman Young, H.R. 295, to amend the 
Hydrographic Services Improvement Act of 1998, to include 
funding for data collection and analysis in the Arctic Ocean.
    And, of course, H.R. 991, the noncontroversial one, as he 
says, amends the Marine Mammal Protection Act of 1972 to allow 
individuals who have hunted polar bears in Canada prior to the 
listing of those bears under the Endangered Species Act, to 
import these trophies into the United States.
    My understanding is that Fish and Wildlife Service began an 
outreach campaign to alert hunters that a prohibition would be 
placed on polar bear trophy imports if a listing occurred. 
However, approximately 40 hunters were not able to import their 
trophies, and the issue today is whether the importation should 
now be allowed.
    I also look forward to hearing about H.R. 1670, which was 
introduced by the distinguished former Chairman of this 
Subcommittee, Congresswoman Bordallo. This bill amends the 
Sikes Act to include State-owned National Guard installations 
under the Integrated Natural Resources Management Plan 
requirements to conserve and rehabilitate natural resources on 
these installations.
    Yesterday, the Armed Services Committee, who shares 
jurisdiction over the Sikes Act, reported this bill favorably 
as part of the National Defense Authorization Act, and I 
appreciate Congresswoman Bordallo's thoughtfulness and efforts 
for her amendment to ensure that the Department of Defense will 
still be required to prepare an Integrated Natural Resources 
Management Plan for any installation in the Northern Mariana 
Islands and American Samoa.
    Thank you, and I also appreciate Chairman Fleming's 
decision to include H.R. 670 on today's agenda. H.R. 670 
provides exactly the same rights to the three miles of 
submerged islands surrounding the Northern Mariana Islands as 
are provided by Federal law to American Samoa, as well as Guam 
and the United States Virgin Islands.
    The same bill passed the House of Representative's in the 
One Hundred and Eleventh Congress unanimously, but the other 
body failed to take final action. So we have to restart the 
legislative process with today's hearing, and I hope for speedy 
action by this Committee and by the House and passage by the 
Senate.
    H.R. 670 is crucial to the people of the Northern Mariana 
Islands and has received wide local support, including from the 
Governor and the Northern Marianas Legislature.
    The Northern Mariana Islands is the only United States 
jurisdiction that does not have ownership of the submerged 
lands three miles off its shores. In approving the covenant in 
1976, which brought our people into union with the United 
States, it was widely assumed that there was no relinquishment 
of ownership of these lands.
    Thirty years later, however, in 2005, the Ninth Circuit 
Court of Appeals came to the conclusion that these submerged 
lands in the Northern Mariana Islands were the property of the 
United States.
    The Court did recognize the integral connection between 
these Mariana resources and the people of the Northern Mariana 
Islands, and suggested that Congress could return this land to 
us. H.R. 670 does exactly that.
    I would also note that when President George W. Bush 
created the Mariana Trench Marine National Monument, in 
consultation with Northern Marianas officials, his Proclamation 
foresaw the conveyance of three miles of submerged lands 
specifically, and in the Island Units of the Monument, a 
coordination of management by the Northern Marianas and the 
Federal Government.
    I personally support this co-management concept and will 
continue to encourage the Federal Government in this direction. 
I believe that this will help ensure that sufficient Federal 
resources are available for management, and that the promises 
made to the Marianas by the White House in establishing the 
Monument are not forgotten.
    But let me make this very clear. After this bill is enacted 
into law, the people and the government of the Commonwealth of 
the Northern Mariana Islands will have the option of exercising 
full control over the submerged lands surrounding these three 
islands, or deciding to include these submerged lands within 
the Monument under co-management with responsible Federal 
agencies.
    I will strongly suggest and encourage the Northern Mariana 
Islands government to continue to work toward a co-management 
arrangement. I want to thank all the Members who are cosponsors 
of H.R. 670, and I urge that my colleagues support it. Thank 
you very much, Chairman Young.
    [The prepared statement of Mr. Sablan follows:]

Statement of The Honorable Gregorio Sablan, a Delegate in Congress from 
     the Commonwealth of the Northern Mariana Islands, on H.R. 670

    Thank you, Chairman Young. I look forward to hearing about the 
various bills before us today.
    I want to also welcome my colleague and friend, the distinguished 
gentleman representing North Carolina's 8th Congressional District, 
Congressman Kissell, to testify on his bill, H.R. 1160, the McKinney 
Lake National Fish Hatchery Conveyance Act.
    Today, we will also hear testimony on two bills introduced by 
Chairman Young. H.R. 295 amends the Hydrographic Services Improvement 
Act of 1998 to include funding for data collection and analysis in the 
Arctic Ocean. H.R. 991 amends the Marine Mammal Protection Act to allow 
individuals who hunted polar bears in Canada prior to the listing of 
those bears under the Endangered Species Act, to import these trophies 
to the United States. My understanding is that the Fish and Wildlife 
Service began an outreach campaign to alert hunters that a prohibition 
would be placed on polar bear trophy imports if a listing occurred. 
Approximately 40 hunters, however, were unable to import their 
trophies. At issue today, is whether that importation should now be 
allowed.
    I also look forward to hearing about H.R. 1670, which was 
introduced by the distinguished former Chairman of this Subcommittee, 
Congresswoman Bordallo. This bill amends the Sikes Act to include 
State-owned National Guard installations under the Integrated Natural 
Resources Management Plan requirements to conserve and rehabilitate 
natural resources on these installations. Yesterday, the Armed Services 
Committee, who shares jurisdiction of the Sikes Act, reported this bill 
favorably, as part of the National Defense Authorization Act. I 
appreciate Congresswoman Bordallo's thoughtfulness and efforts for her 
amendment that ensures that the Department of Defense will still be 
required to prepare Integrated Natural Resources Management Plans for 
any military installation in the Northern Mariana Islands and American 
Samoa.
    I very much appreciate Chairman Fleming's decision to include H.R. 
670 on today's agenda.
    H.R. 670 provides exactly the same rights to the three miles of 
submerged lands surrounding the Northern Mariana Islands as are 
provided by federal law to American Samoa, Guam, and the U.S. Virgin 
Islands.
    The same bill passed the House of Representatives in the 111th 
Congress--unanimously. But the other body failed to take final action.
    So, we have to restart the legislative process with today's hearing 
and, I hope, speedy action on the House floor and passage by the 
Senate.
    H.R. 670 is crucial to the people of the Northern Mariana Islands 
and has received wide local support, including from the Governor and 
the Northern Marianas Legislature.
    The Northern Mariana Islands is the only U.S. jurisdiction that 
does not have ownership of the submerged lands three miles off its 
shores. In approving the Covenant in 1976, which brought our people 
into union with the United States, it was widely assumed that there was 
no relinquishment of ownership of these lands.
    Thirty years later, however, in 2005 the Ninth Circuit Court of 
Appeals came to the conclusion that the submerged lands were the 
property of the United States.
    The Court did recognize the integral connection between these 
marine resources and the people of the Northern Mariana Islands and 
suggested that Congress could return these lands to us.
    H.R. 670 does exactly that.
    I would also note that when President George W. Bush created the 
Marianas Trench Marine National Monument--in consultation with Northern 
Marianas officials--his Proclamation foresaw this conveyance of three 
miles of submerged lands, specifically, and in the Islands Unit of the 
Monument a coordination of management by the Northern Marianas and the 
federal governments. I personally support this co-management concept 
and will continue to encourage the Commonwealth government in this 
direction. I believe this will help ensure that sufficient federal 
resources are available for management and that the promises made to 
the Marianas by the White House in establishing the Monument are not 
forgotten.
    But let me make this very clear. After this bill is enacted into 
law, the people and the Government of the Commonwealth of the Northern 
Mariana Islands will have the option of exercising full control over 
the submerged lands surrounding these three islands, or deciding to 
include those submerged lands within the Monument under co-management 
with responsible Federal agencies.
    I want to thank all those Members who are cosponsors of this bill 
and ask all of my colleagues to support H.R. 670.
    I look forward to hearing from our witnesses today and learning 
more about these issues.
                                 ______
                                 
    Mr. Young. I thank you. And, Ms. Bordallo, do you have a 
comment on your legislation, outstanding as it is?

 STATEMENT OF HON. MADELEINE BORDALLO, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much, Chairman Young, and 
Ranking Member Sablan and, of course, fellow members of this 
Committee. I am very grateful for the opportunity to speak 
before you in support of H.R. 1670, the Sikes Act Amendments 
Act of 2011.
    Now, this legislation would amend the Sikes Act to improve 
natural resources management planning for State-owned 
installations used for the national defense, primarily our 
National Guard installations.
    I introduced this bill when I was Chair of this 
Subcommittee, and now I have reintroduced it with minor 
technical changes at the request of the Department of Defense.
    The amendments proposed by the Department of Defense will 
improve coordination between DoD, the Department of the 
Interior, and State, Territorial, and local partners, for the 
protection of fish and wildlife resources on DoD lands, and 
State-owned installations used for the national defense.
    In the One Hundredth and Eleventh Congress, this 
Subcommittee held an oversight hearing on this legislation, 
during which the DoD and the United States Fish and Wildlife 
Service provided testimony highlighting the significance of 
codifying this language as an important step forward with an 
agenda of promoting responsible environmental stewardship.
    The DoD oversees nearly 25 million acres of valuable fish 
and wildlife habitat, at approximately 400 military 
installations nationwide. These lands contain a wealth of plant 
and animal life, vital wetlands for migratory birds, and 
provide habitat for nearly 300 Federally listed threatened and 
endangered species.
    For 50 years the Sikes Act has helped the commanders of 
these installations balance their use of air, land, and water 
resources for military training and testing, with the need to 
conserve and rehabilitate these important ecosystems.
    In past National Defense Authorization Acts, Congress has 
made improvements to the Sikes Act, and my bill, the Sikes Act 
Amendments Act of 2011, continues this progress by proposing 
two more significant improvements to the law.
    H.R. 1670 will clarify the scope of the Sikes Act by 
extending its provisions to State-owned National Guard 
installations, including the requirement to develop and 
implement Integrated Natural Resources Management Plans that 
are already required for Federally owned military 
installations.
    Another provision in this bill would make several technical 
and clarifying changes to the U.S. Code to make it consistent 
with other subheadings and other titles. As this legislation 
advances through the legislative process, I will continue to 
work with DoD and my colleagues in Congress to modify this 
language to make permanent the successful Invasive Species 
Management Pilot Program on Guam, authorized into law in 2004, 
and appropriately expand its scope to all military 
installations.
    The Department of Defense has supported this initiative, 
and it is an important part of the ecosystem approach of the 
Sikes Act, and again, I want to thank you, Chairman Young, and 
Ranking Member Sablan, for holding this hearing, and I look 
forward to working with my colleagues in this committee, and 
the Armed Services Committee, to ensure that H.R. 1670 does 
become law. Thank you, and I yield back.
    Mr. Young. Thank you, Ma'am. I appreciate that very much, 
and for your information, and the information of Mr. Sablan. I 
support both of your bills, and so we will get along real well 
today. Of course, I expect a little tit-for-tat, you know, on 
that.
    Ms. Bordallo. Understood.
    Mr. Young. All right. We will hear from the first panel, 
which is comprised of our distinguished colleague, The 
Honorable Larry Kissell, from North Carolina. Like all 
witnesses, Larry, your testimony will appear in the full 
hearing record, and so I ask for you to keep your oral 
statement to five minutes. If you go over that, I will allow 
you to do so, but try to keep it within five minutes. So, you 
are on.
    Ms. Bordallo. Mr. Chairman, could I just interrupt for one 
minute.
    Mr. Young. Yes.
    Ms. Bordallo. I just wanted to point out that Congressman 
Kissell and I were up until 3:00 a.m. last evening. Armed 
Services had a budget hearing, and it is amazing to see him 
here to testify, and I just wanted to make that point.
    Mr. Young. Very good.

     STATEMENT OF HON. LAWRENCE WEBB ``LARRY'' KISSELL, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH CAROLINA, ON 
                           H.R. 1160

    Mr. Kissell. I would just like to add to my colleague's 
statement when she said we were up until 3:00 a.m. together. I 
quickly would add it was with the Armed Services, and although 
the opportunity otherwise might have been appreciated, too. But 
it wasn't the case last night. Thank you, Mr. Chairman and Mr. 
Ranking Member, and most honorable colleagues of this 
Subcommittee for the opportunity to come to you today to talk 
to you about H.R. 1160, the McKinney Lake National Fish 
Hatchery Conveyance Act.
    This is a bipartisan, noncontroversial bill. We have nine 
original cosponsors of the North Carolina delegation. A bill 
with the same language has been introduced in the Senate, S. 
651, supported by both the North Carolina Senators.
    The McKinney Lake area is 18 acres, consisting of 23 ponds, 
a warmwater hatchery, in my district of Hoffman in South 
Central North Carolina. The facility is currently being used to 
raise channel catfish, from fingerling-sized, to harvestable 
size catfish, and these fish are then transferred to the North 
Carolina Wildlife Resources Community Fishing Program.
    A great program throughout the State of North Carolina, 
where all North Carolinians can participate and have an 
opportunity to learn about fishing, or to fish, whether it is 
from childhood up to seniors. It is a great program, and a very 
successful program.
    This conveyance is to take place from the United States 
Fish and Wildlife Service to the North Carolina Wildlife 
Resource Commission. This program actually began, and the talk 
of conveyance began in 1995, but because of a problem with the 
dam on the main lake there at McKinney Lake Fish Hatchery, this 
has not been able to take place.
    There have been five memorandums of agreement between the 
United States Fish and Wildlife Service, and the North Carolina 
Wildlife Resource Commission to understand that North Carolina 
is running the hatchery while still belonging to the United 
States Fish and Wildlife Resources, and Federal facility.
    And this Act would change that, and I think that it would 
be a smart move to take these 18 acres to North Carolina, and 
let them run it. There are great incentives for keeping it up, 
and up to the best use, and it is being used wisely now.
    And there is also an agreement within H.R. 1160 that if the 
occasion ever arise, that if we needed to, that North Carolina 
would work with the U.S. Fish and Wildlife Service to go back 
to raising fish there, and that agreement is completely taken 
care of.
    It is noncontroversial, and it is agreed to by all sides, 
and I think that it is a good use of the land to be used in 
this way, and I thank you for the opportunity to be talking 
about it.
    [The prepared statement of Mr. Kissell follows:]

      Statement of The Honorable Lawrence Webb ``Larry'' Kissell, 
   Member of Congress, North Carolina's Eighth District, on H.R. 1160

    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to offer testimony today in reference to 
H.R. 1160 the ``McKinney Lake National Fish Hatchery Conveyance Act.''
    Located in Hoffman, North Carolina the McKinney Lake Fish Hatchery 
is a warmwater hatchery, and contains 23 ponds covering more than 18 
acres of water. This primary use of the hatchery is growing fingerling-
sized (3-4 inches) channel catfish to harvestable size (8-12 inches) 
for the N.C. Wildlife Resources Commission's Community Fishing Program.
    The Commission's Community Fishing Program provides angling 
opportunities to thousands of citizens, including children and disabled 
individuals, throughout the year. These Community Fishing Program sites 
are intensively managed bodies of water that receive monthly stockings 
of catchable-sized channel catfish from April-September. The McKinney 
Lake hatchery in conjunction with the Watha State Fish Hatchery near 
Wilmington provides the channel catfish for these monthly stockings. 
Many of these Community Fishing Program sites feature handicap-
accessible fishing piers and solar-powered fish feeders helping to 
provide an enjoyable angling experience for citizens of all ages.
    The ``McKinney Lake National Fish Hatchery Conveyance Act,'' while 
first introduced in the 111th Congress as H.R. 6115 and this congress 
as H.R. 1160 actually has its beginnings in1995. At that time the U.S. 
Fish and Wildlife Service offered to transfer ownership and operation 
of this hatchery to the NC Wildlife Resources Commission to help meet 
the state's fisheries management objectives. However, due to the 
structural deficiencies of the lake's dam, the transfer was never 
completed. Since then, the dam issues have been corrected, and the NC 
Wildlife Resources Commission has had full management of the hatchery 
under a memorandum of agreement (MOA) with the U.S. Fish and Wildlife 
Service (USFWS). The State of North Carolina and the USFWS have entered 
into 5 subsequent MOA's since 1995, with the most current being signed 
on November 10, 2009 and continuing until September 30, 2012.
    H.R. 1160 was drafted by my staff with the cooperation, and 
consultation, of both the North Carolina Wildlife Resources Commission 
and the USFWS. The product of this cooperation is a bill that has 
garnered the support of 9 bi-partisan original co-sponsors from the 
North Carolina House delegation, as well as companion legislation (S. 
651) in the Senate. The Senate version is the exact same legislative 
language and is co-sponsored by both North Carolina Senators.
    In the letter of invitation to testify before you today, Chairman 
Fleming asked for me to explain the rationale for Section 2 (e). This 
language in H.R. 1160 allows the Fish and Wildlife Service to 
potentially utilize these conveyed facilities for the propagation of 
certain aquatic resources in the future. Section 2 (e) is the product 
of a request from the USFWS, who requested to have the opportunity in 
the future to enter into an agreement with the State to raise fish for 
them if needed. During the drafting of H.R. 1160 the USFWS wanted to 
ensure that in case of future need they would have the ability to 
contract with the state for use of the facility. My office and the 
North Carolina Wildlife Resources Commission were more than happy to 
grant this request to the USFWS and include Section 2 (e) in H.R. 1160.
    In conclusion, H.R. 1160 would complete a land conveyance that by 
all accounts should have occurred in the late 1990's. In addition the 
state of North Carolina would be able to continue producing catfish for 
the popular and important Community Fishing Program, on land and 
facilities that they would have ownership of. The State ownership of 
this land would incentivize them to make long term improvements and 
investments in the property, keeping it a viable fish hatchery. I 
appreciate the opportunity to testify before you today and look forward 
to H.R. 1160 moving through the legislative process. Thank you.
                                 ______
                                 
    Mr. Young. Thank you, Larry. Any questions for the panel 
member? Larry, one question, does anybody oppose this?
    Mr. Kissell. No one that I know of. It has been just full 
between the United States Fish and Wildlife Service and North 
Carolina Wildlife and Resources. It has just been, hey, this is 
the best thing we can do, and it is really working well now.
    So if there is any opposition, once again, the two North 
Carolina Senators have already dropped the bill, S. 651, and we 
had nine original cosponsors from the North Carolina 
delegation. So I have not found anybody in opposition to this.
    Mr. Young. This is great. I think it is a good idea, and I 
just appreciate you introducing the bill, and we will move this 
bill out of this committee, and see if we can't get it moving.
    Mr. Kissell. OK. Thank you all so much.
    Mr. Young. You betcha. We are ready for our second panel, 
and this panel includes Dr. Rowan Gould, Acting Director, 
United States Fish and Wildlife Service; Captain John Lowell, 
Director of the Office of Coast Survey, National Oceanic and 
Atmospheric Administration; Mr. Gordon Myers, Executive 
Director, North Carolina Wildlife Resources Commission; Mr. 
Jeffrey Flocken, Director, International Fund for Animal 
Welfare, and Mr. Steven Smith of Montgomery, Texas.
    And at this time, I ask for unanimous consent to submit 
three letters for the record in support of H.R. 295, one each 
from MAPPS, TerraSound, and JOA Surveys, LLC. Without 
objection, so ordered.
    [The letters follow:]

May 11, 2011

The Honorable Don Young
U.S. House of Representatives
Washington D.C.

Re: Support for H.R. 295]

Dear Congressman Young:

    We wish to offer our support for H.R. 295 to amend the Hydrographic 
Services Improvement Act.
    During these times of economic challenges, we recognize there are 
many competing needs for funding. Despite the overall need for fiscal 
restraint on the federal level, we support this legislation based on 
the importance of the Arctic and the need for current, reliable 
information regarding the waters of the arctic.
    NOAA is presently over 50 years behind in updating surveys that it 
has already identified as 'critical' and 'emerging critical'. As vital 
as the need for addressing this survey backlog is, the need for 
immediate survey of our Arctic waters, is far greater, even urgent. 
Incorporating it into NOAA's ``Address Survey Backlog'' line item is 
the logical place for it to reside, however it should be provided with 
separate, stand alone funding to ensure its completion without becoming 
a drag on the existing survey backlog.

Sincerely,

Butch Hallford
TerraSond Limited
                                 ______
                                 
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                 

    Mr. Young. Thank you, gentlemen. Like all witnesses, 
your written testimony will appear in the full hearing record. 
So I would ask you to keep your oral statement to five minutes 
as outlined in our invitation letter to you, and under 
Committee Rule 4(a).
    Your microphones are not automatic. So please press the 
button when you are ready to begin. I guess you know how the 
timing lights work. When you begin to speak, our Clerk will 
start the timer, and a green light will appear.
    After four minutes a yellow light will appear, and at that 
time you should begin to conclude your statement. After five 
minutes, a red light will come on, and you may complete your 
sentence, but at that time I must ask you to please stop. That 
is easy. Mr. Gould, you are recognized for five minutes.

 STATEMENT OF HON. ROWAN GOULD, ACTING DIRECTOR, UNITED STATES 
                   FISH AND WILDLIFE SERVICE

    Dr. Gould. Good morning, Congressman Young.
    Mr. Young. Good morning.
    Dr. Gould. Mr. Chairman and Members of the Subcommittee, I 
am Rowan Gould, Acting Director of the United States Fish and 
Wildlife Service, and I appreciate the opportunity to testify 
today on H.R. 991, which would amend the Marine Mammal 
Protection Act related to the importation of polar bear 
trophies; H.R. 1160, the McKinney Lake National Fish Hatchery 
Conveyance Act; and H.R. 1670, the Sikes Act Amendments Act of 
2011.
    I would also like to submit a statement for the record on 
behalf of the Department of the Interior on H.R. 670, 
legislation that would convey certain submerged lands to the 
Commonwealth of Northern Mariana Islands. The Administration 
would strongly support this bill if amended to address the 
issues outlined in that statement.
    Mr. Young. Without objection.
    Dr. Gould. First, I will discuss H.R. 991. Before the polar 
bear was listed under the Endangered Species Act, the Service 
applied the provisions of the Marine Mammal Protection Act to 
allow the importation of the sport-hunt polar bear trophies 
that were legally harvested from approved populations in 
Canada.
    After the ESA listing, such imports were prohibited by the 
MMPA. The Service's written testimony explains the legal 
framework on trophy imports under the MMPA and the effect of 
the ESA listing.
    The testimony also describes the Service's significant 
outreach efforts to inform hunters of the impact of the ESA 
listing on trophy imports. We recognize that a number of 
hunters are not able to import their trophies due to the 
listing, even though they applied for permits and successfully 
completed their legal polar bear hunts before the listing went 
into effect.
    The Service does not oppose legislation to allow the import 
of polar bear trophies taken by those hunters, who both applied 
for the permit, and completed their legal hunt prior to the ESA 
listing.
    However, the Service does not support any broader changes 
to the MMPA that would allow additional sport-hunted polar bear 
trophies to be imported. We would like to continue to work with 
Congressman Young to find any solutions to any problems that 
may come up supporting this legislation moving forward.
    H.R. 1160, the legislation would convey the McKinney Lake 
National Fish Hatchery to the State of North Carolina to be 
used as a component of the Fish and Wildlife Management Program 
of the State.
    The legislation also requires the State to allow the 
Service to use the hatchery to propagate any critically 
important aquatic resources held in public trust. Since 1996 
the State has operated the hatchery under a Memorandum of 
Understanding with the Service, primarily for the purpose of 
raising catchable-sized channel catfish for the community 
fishing program.
    Under this agreement the State assumes full responsibility 
for all expenses related to the hatchery operation. The Service 
fully supports H.R. 1160 as it would allow for the continued 
operation of the hatchery, while maintaining the hatchery's 
role in the State's urban fishing program in restoring and 
recovery of aquatic resources held in public trust.
    Finally, I will discuss H.R. 1670. This legislation would 
add State-owned land supporting Army National Guard facilities 
to the requirements of Integrated Natural Resources Management 
Plans under the Sikes Act.
    The Service believes that it is a valuable amendment that 
increases the benefits of the Sikes Act. The Service, the 
States, and the Department of Defense, have long recognized the 
value of working together to conserve fish and wildlife 
resources on military lands.
    Military lands provide important habitat for fish and 
wildlife. These lands also provide significant opportunities 
for hunting, fishing, and other wildlife-associated recreation.
    The Sikes Act has fostered strong partnership amongst the 
Service, DoD, and the States. Through these partnerships, we 
have enhanced the conservation of fish and wildlife resources 
on military installations, while also supporting the DoD 
missions on those lands.
    Accordingly, the Service supports H.R. 1670 and its 
extension of the Sikes Act's coverage on State-owned facilities 
used for our national defense. Thank you for the opportunity to 
testify this morning. I am happy to answer any questions the 
Subcommittee may have, and look forward to working with the 
Subcommittee Members as you consider these bills.
    [The prepared statement of Dr. Gould follows:]

   Statement of Rowan Gould, Acting Director, U.S. Fish and Wildlife 
 Service, U.S. Department of the Interior, on H.R. 670, H.R. 991, H.R. 
                          1160, and H.R. 1670

INTRODUCTION
    Chairman Fleming and Members of the Subcommittee, I am Rowan Gould, 
Acting Director of the U.S. Fish and Wildlife Service (Service), within 
the Department of the Interior (Department). I appreciate the 
opportunity to appear before the Subcommittee today to testify on: H.R. 
670, to convey certain submerged lands to the Commonwealth of the 
Northern Mariana Islands in order to give that territory the same 
benefits in its submerged lands as Guam, the Virgin Islands, and 
American Samoa have in their submerged lands; H.R. 991, to amend the 
Marine Mammal Protection Act of 1972 to allow importation of polar bear 
trophies taken in sport hunts in Canada before the date the polar bear 
was determined to be a threatened species under the Endangered Species 
Act of 1973; H.R. 1160, the McKinney Lake National Fish Hatchery 
Conveyance Act; and H.R. 1670, the Sikes Act Amendments Act of 2011.
H.R. 991
    H.R. 991 would amend the Marine Mammal Protection Act (MMPA) of 
1972 to allow importation of polar bear trophies taken in sport hunts 
in Canada before the date the polar bear was determined to be a 
threatened species under the Endangered Species Act (ESA) of 1973.
Legal Framework for Importing Sport-hunted Polar Bear Trophies
    The polar bear was listed as threatened under the ESA on May 15, 
2008, primarily due to ongoing and predicted loss of sea-ice habitat 
caused by climate change. If the polar bear was protected only under 
the ESA, the Service could have continued to allow the import of sport-
hunted polar bear trophies from Canada. This could have been 
accomplished either by including a provision in the special rule issued 
for this species under section 4(d) of the ESA authorizing such imports 
or by applying the provisions of section 9(c)(2) of the ESA, which 
would have allowed sport-hunted polar bear trophies to be imported for 
personal use by the hunter without additional ESA authorization (as 
long as the trophy was imported with a Canadian export permit issued 
under the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora (CITES) and all other requirements of law were 
met).
    However, the polar bear is also protected under the MMPA, which has 
its own legal requirements, separate and distinct from those of the 
ESA, relative to the importation of marine mammals. The MMPA 
establishes a federal responsibility, shared by the Secretaries of the 
Interior and Commerce, for the management and conservation of marine 
mammals. The Secretary of the Interior, through the Service, protects 
and manages polar bears, sea and marine otters, walruses, three species 
of manatees, and dugongs.
    Until the polar bear was listed under the ESA, section 104(c)(5) of 
the MMPA had provided for the import of certain polar bear trophies 
from approved populations in Canada. However, any marine mammal listed 
as threatened or endangered under the ESA is considered ``depleted'' 
under section 3(1)(C) of the MMPA, and consequently, sections 
101(a)(3)(B) and 102(b)(3) of the MMPA prevent the import of sport-
hunted polar bear trophies.
    The Service has interpreted the existing grandfather clause 
(section 104(c)(5)(D) of the MMPA), as continuing to authorize the 
issuance and use of permits that allow the import of polar bears 
legally harvested in Canada prior to February 18, 1997. As of May 15, 
2008, when the ESA listing took effect, except for those trophies that 
qualify under this grandfather clause, any permit previously issued 
under section 104(c)(5) could no longer be used to import a sport-
hunted polar bear trophy, and no new permits could be issued or 
additional imports allowed under that section.
Outreach to Polar Bear Hunters on the Potential Impact of an ESA 
        Listing
    Once the proposed rule to list the polar bear as threatened was 
published in January 2007, the Service conducted extensive outreach 
efforts on the potential impact of an ESA listing on the import of 
sport-hunted trophies. Hunters were advised that, although the Service 
was able to authorize the importation of polar bear trophies taken in 
Canada under the provisions of section 104(c)(5) of the MMPA while the 
species was proposed for listing, the Service would not be able to 
continue to authorize imports under this section of the MMPA if and 
when the listing became final. The Service wanted hunters to be fully 
aware of the fact that if the polar bear were listed, then hunters 
would no longer be able to import their sport-hunted trophies.
    Beginning in January 2008, the Service addressed a large number of 
telephone and e-mail communications on this issue, including inquiries 
from hunters, Canadian outfitters and taxidermists, and the media. The 
Service attempted to inform all potential applicants that a decision on 
the listing was imminent and that, if the species was listed, further 
imports would be prohibited. During the 2008 Convention of Safari Club 
International, the Service also provided information at the Convention 
regarding the impacts of a potential listing on the importation of 
sport-hunted polar bear trophies.
    Under the MMPA, the process for reviewing applications for the 
issuance of import permits requires publication of a notice of receipt 
of an application in the Federal Register and allowance of a 30-day 
public comment period. In addition, once a U.S. import permit is 
issued, the Canadian Management Authority must issue a CITES export 
permit. Given that the permitting process can take between 50 and 90 
days, the Service attempted to provide as much information as possible 
to potential hunters, as quickly as possible. The Service also worked 
closely with the Canadian CITES Management Authority to ensure 
permittees had accurate information about obtaining the required 
Canadian CITES export permit.
    On May 5, 2008, the Service attempted to contact those individuals 
who had already been issued a permit to import a trophy, but had not 
already done so, to inform them of a court decision and the potential 
that an ESA listing might go into effect on or before May 15. 
Permittees were informed that trophies must be imported before the 
listing's effective date.
Status of Pending Polar Bear Trophy Import Permit Applications
    On the day the polar bear was listed under the ESA, the Service had 
44 permit applications pending for which a final decision had not been 
made on whether or not to issue a permit. Notice of many of these 
applications had already been published in the Federal Register, but 
the required 30-day comment period was still open or just recently 
closed. Other applications had only recently been received and the 
notice had not yet been published in the Federal Register. In addition 
to these individuals, it is possible that other U.S. hunters had taken 
bears from an approved population prior to the listing date, but had 
not yet applied to the Service for the required import permits; in the 
absence of applications for them, the Service cannot state how many 
additional bears were taken by U.S. hunters prior to the effective date 
of the ESA listing.
    With the exception of one permit application that qualified for 
import under the grandfather clause, all applications that were 
received prior to the listing of the polar bear under the ESA were for 
bears taken from populations that had previously been approved for 
importation.
    The Department recognizes that there were a number of hunters who 
both applied for permits and successfully completed their polar bear 
hunts prior to the May 15, 2008 listing. We also recognize that, by 
court order, the Service's final decision to list the polar bear under 
the ESA went into effect immediately, whereas such decisions normally 
take effect 30 days after the publication date of the final listing 
decision. The ESA listing triggered an immediate change in the status 
of the polar bear under the MMPA such that polar bear trophies could no 
longer be imported into the United States. If the ESA listing had taken 
effect 30 days after the publication date, as is normally the case, 
some of these hunters may have had the opportunity to import their 
trophies before the listing took effect.
    The Administration does not oppose legislation allowing those 
hunters who both applied for a permit and completed their legal hunt of 
a polar bear from an approved population prior to the ESA listing to 
import their polar bear trophies, provided that the hunter is required 
to submit proof that the bear was legally harvested in Canada from an 
approved population prior to the effective date of the ESA listing. The 
Department does not support any broader changes to the MMPA that would 
allow additional sport-hunted polar bear trophies to be imported beyond 
those where hunters submitted their import permit application and 
completed their hunt prior to the ESA listing. Therefore, the 
Department does not support H.R. 991 as currently written because it 
would allow the import of polar bear trophies regardless of whether the 
hunter had applied for the permit prior to the ESA listing.
H.R. 1160
    H.R. 1160 directs the Secretary of the Interior to convey the 
McKinney Lake National Fish Hatchery to the state of North Carolina to 
be used by the North Carolina Wildlife Resources Commission as a 
component of the fish and wildlife management program of the state. The 
legislation also requires the state to allow the Service to use such 
property for the propagation of any critically important aquatic 
resource held in public trust to address the specific restoration or 
recovery needs of such resource.
The National Fish Hatchery System
    The Service's Fisheries Program has played a vital role in 
conserving America's fishery resources for 140 years, and today is a 
key partner and an essential component with States, Tribes, Federal 
agencies, other Service programs, and private interests in a larger 
effort to conserve fish and aquatic resources and their habitats. The 
National Fish Hatchery System consists of 71 National Fish Hatcheries, 
9 Fish Health Centers, 7 Fish Technology Centers, one Historic National 
Fish Hatchery, and the Aquatic Animal Drug Approval Partnership 
Program. It is comprised of nearly 16,000 acres of lands and waters, of 
which 4,000 are administered through agreements, easements and/or 
leases. The National Fish Hatchery System has land holdings in 34 
states that are widely dispersed geographically.
    As the Nation's only Fish Hatchery System, these facilities and 
their highly-trained personnel provide a network unique in national 
conservation efforts because of the suite of capabilities available. 
These include propagation of healthy and genetically-appropriate 
aquatic animals and plants to help recover and re-establish wild 
populations; and scientific leadership in development of aquaculture, 
conservation genetics, fish nutrition, and disease diagnostic 
technologies. Working closely with State, Tribal, and nongovernmental 
organizations, the Program provides substantive educational and 
recreational opportunities to citizens of all ages, as well as 
substantial economic benefits for local communities.
McKinney Lake National Fish Hatchery
    The McKinney Lake National Fish Hatchery was established on 
December 27, 1937, and is located in Hoffman, North Carolina, between 
Southern Pines and Rockingham. This 422-acre site includes an estimated 
100 acres for the warmwater fish hatchery facility. The remaining 
acreage consists primarily of forested watershed including the 70-acre 
McKinney Lake, which serves as the water supply reservoir for the 
hatchery. The property also includes six buildings, three residences, 
and 23 earthen ponds.
    The original purpose of the hatchery was to produce largemouth 
bass, channel catfish, and sunfish, to support the Service's farm pond 
distribution program. This program was aimed at providing native 
fingerling fish species to people who requested assistance with private 
ponds. The Service eventually transferred the farm pond distribution 
program to state agencies and, as a result, the McKinney Lake hatchery 
began to raise other species, including striped bass, to restore 
populations along the Atlantic Coast. Within a relatively short period 
of time, these efforts were quite successful.
    In 1996, the Service offered the McKinney Lake facility to North 
Carolina. Since that time, the North Carolina Wildlife Resources 
Commission has operated the hatchery under a Memorandum of 
Understanding with the Service, primarily for the purpose of raising 
catchable size channel catfish for the Commission's Community Fishing 
Program. Under this agreement, the Commission assumes full 
responsibility for all costs and expenses related to operation of 
hatchery facilities.
    The hatchery is an important part of the local community and 
through its work connects people to the outdoors in important ways. 
Each spring, the hatchery grows fingerling-sized channel catfish three 
to four inches in length to a harvestable size of 8 to 12 inches for 
the Commission's Community Fishing Program. In April, the fish are 
collected and stocked into more than 40 community water bodies across 
the state, including Richmond County. The Community Fishing Program 
promotes family-oriented recreational activities in urban areas. Many 
sites feature a handicap-accessible fishing pier and solar-powered fish 
feeders to make fishing more enjoyable for all anglers. This program 
provides an opportunity for people of all ages to get outdoors and gain 
a greater connection with nature.
    The Department supports H.R. 1160 and the conveyance of the 
McKinney Lake National Fish Hatchery and its operations to the North 
Carolina Wildlife Resources Commission (which already manages this 
property under a Memorandum of Understanding with the Department) for 
the purposes of fish and wildlife management. This would allow for the 
continued operation of the hatchery and the important role it plays in 
the State's urban fishing program and in addressing the specific 
restoration or recovery needs of aquatic resources held in public 
trust. It is our understanding that the State of North Carolina 
supports the proposed conveyance. Accordingly, we recommend that the 
bill be revised to make clear that the conveyance is subject to the 
State agreeing to receive the property (this revision would also avoid 
potential constitutional concerns). This could be accomplished by 
adding ``and subject to the State's agreement'' after ``without 
reimbursement'' in section 2(b) of the bill.
H.R. 1670
    H.R. 1670 would add state-owned lands supporting Army National 
Guard facilities to the requirements of Integrated Natural Resources 
Management Plans (INRMPs) under the Sikes Act. The Service appreciates 
Congresswoman Bordallo's efforts to amend the Sikes Act in this way, 
and the Subcommittee's hearing on H.R. 1670.
    The Service, the states, and Department of Defense (DOD) have long 
recognized the importance and value of working cooperatively to 
conserve fish and wildlife resources on military lands. Military lands 
provide valuable habitat for fish and wildlife, as well as significant 
opportunities for hunting, fishing and other wildlife-associated 
recreation. The Sikes Act, and its amendments, have fostered an 
effective framework for our partnership with DOD and the states. 
Through this partnership, we have been able to increase our abilities 
to conserve fish and wildlife resources found on military 
installations, while also supporting the national defense and other 
missions of lands managed by the DOD.
    The Department of Defense manages approximately 30 million acres of 
land on about 400 military installations in the United States. Military 
lands contain rare and unique plant and animal species and native 
habitats such as old-growth forests, tall-grass prairies, and vernal 
pool wetlands. Over 400 threatened and endangered species live on DOD-
managed lands. Public access to many of these sites is limited due to 
security and safety concerns; thus they are sheltered from disturbance 
and development. These lands and the species they support are an 
essential component of our Nation's biodiversity, and the development, 
implementation, and improvement of INRMPs supports the long-term health 
of the habitats supported on military installations. The Service is 
proud of its on-going partnership with DOD and the states to conserve 
fish and wildlife resources on military installations. The Service 
looks forward to continued participation and cooperation with the DOD 
and state fish and wildlife agencies through the Sikes Act.
    On May 25, 2010, during the 111th Congress, the Department 
testified on H.R. 5284, a bill similar to H.R. 1670. We refer the 
Subcommittee to that testimony for a description of the history of the 
Sikes Act and the Service's roles and responsibilities under the law. 
In that testimony we supported the provision in H.R. 5284 to add state-
owned lands supporting Army National Guard facilities to the 
requirements of INRMPs under the Sikes Act. H.R. 1670 is comprised 
solely of that provision, which the Service believes is a valuable 
amendment for improved Sikes Act coverage of State-owned facilities 
used in national defense. Accordingly, the Department supports H.R. 
1670.
H.R. 670
    H.R. 670 would convey certain submerged lands to the Commonwealth 
of the Northern Mariana Islands in order to give that territory the 
same benefits in its submerged lands as Guam, the Virgin Islands, and 
American Samoa have in their submerged lands. The Department of the 
Interior has submitted a Statement for the Record on this legislation.
CONCLUSION
    Thank you for the opportunity to testify this morning. I am happy 
to answer any questions the Subcommittee may have and look forward to 
working with the Subcommittee members as you consider these bills.
                                 ______
                                 
    Mr. Young. Thank you, Doctor. The next witness is Captain 
John Lowell.

  STATEMENT OF CAPTAIN JOHN LOWELL, DIRECTOR, OFFICE OF COAST 
    SURVEY, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Captain Lowell. Good morning, Congressman Young, Ranking 
Member Sablan, and Members of the Subcommittee. My name is 
Captain John Lowell, and I am the Director of NOAA's Office of 
Coast Survey.
    Thank you for asking me to testify on H.R. 295, a bill to 
amend the Hydrographic Services Improvement Act of 1998, to 
authorize funds for enhancing NOAA's hydrographic services 
delivery in the Arctic.
    NOAA has specific authorities under the Coast and Geodetic 
Survey Act of 1947, and the Hydrographic Services Improvement 
Act of 1998, as amended. Although our existing mandates cover 
all United States waters, including the United States Arctic, 
and allow activities outside United States waters, we support 
the legislation's intent to recognize the Arctic's growing need 
of NOAA's geospatial services for safe navigation, sustainable 
economic development, delineating the United States extended 
continental shelf, and monitoring and describing coastal 
change.
    NOAA's Arctic Vision and Strategy released on March 16, 
2011, identifies these same objectives as priorities, 
supporting navigation safety, maritime security, and 
environmental protection.
    NOAA's geospatial services are also fundamental to other 
Arctic activities, including climate change adaption, community 
resilience, energy development, and coastal resource 
management.
    NOAA's hydrographic services cover the 3.4 million square 
nautical miles of the United States exclusive economic zone, 
including the nearly one million square nautical miles of 
United States Arctic waters.
    With our current authority, and with Congressional support, 
NOAA is providing a high level of hydrographic services to the 
Arctic. H.R. 295 puts a well deserved spotlight on emerging 
Arctic issues.
    As you know, there is now widespread evidence of climate 
change in the Arctic region, most dramatically observed in loss 
of sea ice. As access to the region increases with sea ice 
retreat, commercial shipping interests anticipate open Arctic 
trade routes within the decade.
    These companies, as well as passenger cruises, fishing and 
other economic sector interests, will exert pressure on the 
marine transportation system infrastructure. As the United 
States begins to confront these Arctic challenges, it is 
evident that despite some exploration and research, basic data 
are lacking.
    The science to inform many decision making processes and 
support services is inadequate because the reason has been 
relatively inaccessible until recently. The Arctic is deficient 
in many of these hydrographic services that NOAA provides to 
the rest of the Nation.
    For example, most Arctic waters that are charted were 
surveyed with obsolete technology dating back to the 1800s, 
before the region was part of the United States. Most of the 
shoreline along Alaska's northern and western coasts have not 
been mapped since the 1960s, if ever, and confidence in the 
region's nautical charts is low.
    While much of NOAA's Arctic effort are focused on assessing 
and prioritizing the region's needs, our navigation based 
programs are taking steps to provide essential geospatial 
foundation.
    In 2010, NOAA conducted surveys in the key areas of 
interest to the United States Navy, completed tide gauge 
demonstration projects to test Arctic conditions in Barrow, 
Alaska, and acquired gravity data over large swaths of interior 
and Southcentral Alaska to support NOAA's Gravity for the 
Redefinition of the American Vertical Datum, or GRAV-D, 
Project.
    NOAA and the United States Geological Survey collaborated 
with Canada on the third of a series of joint sea floor mapping 
missions to help define the limits of the extended continental 
shelf in the Arctic.
    The partnership with Canada continues this summer with a 
seven week expedition to map the sea floor, image the 
underlying sediment layers, and acquire other data. Also, on 
the international front, NOAA worked with other Arctic 
countries to establish an Arctic Regional Hydrographic 
Commission.
    This commission will foster international collaboration on 
hydrographic surveying, nautical charting, and other mapping 
activities. NOAA continues to work with partners like the U.S. 
Coast Guard and local vessel pilots to assess nautical charting 
requirements and prioritize surveys of likely shipping lanes in 
the North Bering and Chukchi Seas.
    In 2011, NOAA will conduct hydrographic surveys in the 
Kotzebue area, which will include the installation of tide 
gauges and other gauges to enable datum transformation in the 
area.
    NOAA will also contract for surveys in Kuskokwim, in the 
Northeast Bering Sea, and in Krenitzin, on the eastern side of 
the Aleutians. In addition, NOAA is acquiring more gravity data 
in Northern Alaska so that most of Alaska will be covered by 
the end of 2012.
    Putting good information into the hands of mariners is 
essential for safe navigation and environmental protection. 
Beyond that, NOAA's hydrographic services are an essential 
component of an open Arctic where conservation, management, and 
use are based on sound science tosupport U.S. economic growth 
and resilient and viable ecosystems and communities.
    H.R. 295 authorizes funds for NOAA to focus its 
hydrographic surveying in the Arctic. It shows support for 
continued contract and essential Federal work while NOAA 
continues to balance the requirements of the Arctic with other 
national priorities.
    Thank you again, Congressman Young, and Members of the 
Subcommittee, for the opportunity to talk about NOAA's 
hydrographic role in the Arctic. We appreciate your attention 
to this important issue, and look forward to working with you 
on this legislation.
    [The prepared statement of Captain Lowell follows:]

Statement of Capt. John E. Lowell, Jr., NOAA, Director, Office of Coast 
     Survey, National Oceanic and Atmospheric Administration, U.S. 
                  Department of Commerce, on H.R. 295

    Good morning Chairman Fleming, Ranking Member Sablan, and Members 
of the Subcommittee. My name is Captain John Lowell, and I am the 
Director of the Office of Coast Survey at the National Oceanic and 
Atmospheric Administration (NOAA). Thank you for inviting me to testify 
before you today on H.R. 295, a bill to amend the Hydrographic Services 
Improvement Act of 1998 to authorize funds for enhancing NOAA's 
hydrographic services delivery in the Arctic.
    Although our existing mandates already cover all U.S. waters, 
including the U.S. Arctic, and even allow activities outside U.S. 
waters, we certainly support the legislation's intent to recognize the 
Arctic as a region in particular need of NOAA geospatial services for 
safe navigation, sustainable economic development, delineating the 
United States' extended continental shelf, and monitoring and 
describing coastal changes. NOAA's Arctic Vision and Strategy, released 
on March 16, 2011, identifies these same objectives as priorities, 
supporting navigation safety, maritime security, and environmental 
protection. NOAA's geospatial services are also fundamental to many 
other activities in the Arctic, including effective climate change 
adaptation, community resilience, energy development, and coastal 
resource management.
    NOAA's surveying and charting responsibilities have existed since 
1807, and we have specific authorities under the Coast and Geodetic 
Survey Act of 1947 (33 U.S.C. 883a et seq.) and the Hydrographic 
Services Improvement Act (33 U.S.C. 892 et seq.), which include:
        <bullet>  The acquisition and dissemination of hydrographic, 
        tide and current, and shoreline information for safe navigation 
        of commerce, and
        <bullet>  Management of the National Spatial Reference System, 
        which provides the fundamental geospatial control for 
        transportation, mapping and charting, and any other activities 
        requiring accurate latitude, longitude, and elevation data.
    NOAA's hydrographic services cover the 3.4 million square nautical 
miles of the U.S. Exclusive Economic Zone (EEZ), including the nearly 
one million square nautical miles of U.S. Arctic \1\ waters. Because of 
the authorities referenced above, explicit direction and funding 
authorization to work in the Arctic is not necessary for NOAA to 
deliver its hydrographic services to this important region.
---------------------------------------------------------------------------
    \1\ The Arctic Research and Policy Act of 1984 defines `Arctic' as 
``all United States and foreign territory north of the Arctic Circle 
and all United States territory north and west of the boundary formed 
by the Porcupine, Yukon, and Kuskokwim Rivers; all contiguous seas, 
including the Arctic Ocean and the Beaufort, Bering and Chukchi Seas; 
and the Aleutian chain.''
---------------------------------------------------------------------------
    Nonetheless, H.R. 295 puts a well-deserved spotlight on emerging 
Arctic issues. The Administration is looking closely at Arctic policy 
and management, as evidenced by the work underway to implement the 
January 2009 Directive (National Security Presidential Directive 66/
Homeland Security Presidential Directive 25) on an Arctic Region 
Policy, the July 2010 National Ocean Policy's recognition of the Arctic 
as an area of special emphasis, and the July 2010 Presidential 
Memorandum on arctic research policy, which reinvigorates interagency 
research coordination in the Arctic.
    As you know, there is now widespread evidence of climate change in 
the Arctic region, most dramatically observed in loss of sea ice. In 
four of the last five years, we have witnessed the lowest sea ice 
extents on record, as well as a 35 percent decrease in thicker multi-
year sea ice. As access to the region increases with sea ice retreat, 
we are seeing a corresponding potential for growth in international and 
domestic Arctic interests. Oil and gas companies are investing more in 
energy exploration, as evidenced most recently by Shell Oil's 2012 
proposal for 10 exploratory wells in the Beaufort and Chukchi Seas. 
Commercial shipping interests are anticipating open Arctic trade routes 
within the decade. As the Arctic eventually becomes more accessible, 
these companies, as well as cruise, fishing, and other economic sector 
interests, will exert pressure on a Marine Transportation System 
infrastructure. In addition, there are unique national security 
interests in the region that will benefit from enhanced geospatial and 
related information and services. As Dr. Jane Lubchenco, the NOAA 
Administrator and Under Secretary of Commerce for Oceans and 
Atmosphere, has said,
        ``The debate over climate change in the Arctic is over. Climate 
        change is happening. The Arctic Ocean is warming. Permafrost is 
        thawing. Sea ice is melting at an alarming rate, and shorelines 
        are eroding. People's lives and livelihoods are being impacted. 
        . .But while the loss of sea ice creates opportunities for 
        commercial enterprises, these same economic growth 
        opportunities have the potential to threaten Arctic ecosystems, 
        communities, and cultures already impacted by the rapidly 
        changing climate...'' (Aspen Institute, March 2011).''
    As the United States begins to confront these Arctic challenges, it 
is evident that despite some exploration and research to date, even the 
most basic data are lacking and the science to inform many decision-
making processes and support services is inadequate. Because the region 
has been relatively inaccessible, without widespread need for such 
information, the Arctic is deficient in many of the hydrographic 
services capabilities that NOAA provides to the rest of the Nation. The 
region currently has:
        <bullet>  virtually no geospatial infrastructure for accurate 
        positioning and elevations;
        <bullet>  sparse tide, current and water level prediction 
        coverage;
        <bullet>  obsolete shoreline and hydrographic data in most 
        areas;
        <bullet>  poor nautical charts; and
        <bullet>  poor weather and ice forecast data.
    For example, most Arctic waters that are charted were surveyed with 
obsolete technology, some dating back to the 1800s, before the region 
was part of the United States. Most of the shoreline along Alaska's 
northern and western coasts has not been mapped since 1960, if ever, 
and confidence in the region's nautical charts is low. Governance and 
management of the marine ecosystems within the Arctic is also a 
critical issue, due not only to the growing pressure of activities like 
shipping, drilling and fisheries but also to the fact that the region 
both strongly impacts and is impacted by global systems. NOAA's 
navigation services provide baseline scientific data, such as 
hydrography, shoreline mapping, oceanography, tides, currents, 
positioning and geodesy, that benefits not only navigation, but also 
supports more informed decisions for other economic development, 
resource management, and coastal planning decision making processes.
    By strengthening its Arctic science and stewardship, NOAA aims to 
better inform policy options and management responses to the unique 
challenges in this fragile region. NOAA's Arctic Vision and Strategy 
aligns our capabilities in support of the efforts of our international, 
Federal, State and local partners, and within the broader context of 
our Nation's Arctic policies and research goals. The Strategy 
recognizes that NOAA can make the highest positive impact to Arctic 
communities and sustainable economic growth by providing products and 
services for safe navigation and security, oil spill response 
readiness, and climate change adaptation strategies. Much of this can 
be accomplished through improvements in the hydrographic services 
available to the Arctic region, including:
        <bullet>  Overhauling the Arctic geospatial framework of 
        geodetic control and water levels, which will correct meters-
        scale positioning errors and enable centimeter-scale 
        measurements to support such critical needs as marine 
        transportation, sea-level change analysis, erosion and 
        permafrost thaw impacts to infrastructure, oil and gas resource 
        exploration, and storm surge modeling; and,
        <bullet>  Surveying and mapping Arctic waters and shoreline for 
        accurate coastal maps and nautical charts, which will benefit 
        navigation and national security, sea level change impact 
        assessments, habitat characterizations, and extended 
        continental shelf delimitation.
    While much of NOAA's Arctic efforts are focused on assessing and 
prioritizing the region's needs, our navigation-based programs are 
taking initial steps to provide the essential geospatial foundation 
described above. In FY 2010, NOAA conducted surveys in key areas of 
interest to the U.S. Navy, completed a tide gauge demonstration project 
to test Arctic conditions in Barrow, and acquired gravity data over 
large swaths of interior and south-central Alaska to support NOAA's 
Gravity for the Redefinition of the American Vertical Datum (GRAV-D) 
work in the Arctic region. NOAA and the U.S. Geological Survey also 
collaborated with Canada on the third of a series of joint seafloor 
mapping missions to help define the limits of the extended continental 
shelf in the Arctic according to the criteria set forth in UNCLOS 
Article 76. This work will help the U.S. delimit the outer limits of 
its shelf. On the international front, in our role as U.S. 
representative to the International Hydrographic Organization, NOAA 
worked with other Arctic member states to establish an Arctic Regional 
Hydrographic Commission to foster collaboration on hydrographic 
surveying, nautical charting, and other mapping activities.
    In FY 2011, NOAA continues to work with partners like the U.S. 
Coast Guard and local vessel pilots to assess nautical charting 
requirements and prioritize surveys of likely shipping lanes in the 
North Bering and Chukchi Seas. Our objective is to help address the 
Bering Strait chokepoint in particular and more broadly to reduce the 
risk of accident and environmental impact in Arctic waters. 
Specifically, in FY 2011 NOAA will conduct hydrographic surveys in the 
Kotzebue area, which will include installation of a tide gauge and 
another gauge to enable datum transformation. NOAA will also contract 
for surveys in Kuskokwim (Northeast Bering Sea) and in Krenitzin (North 
side of Aleutians). In addition, NOAA is building on existing 
partnerships to acquire more gravity data in Northern Alaska so that by 
the end of FY 2012 most of Alaska will be covered. This GRAV-D work 
will vastly improve the positioning accuracies of elevation 
measurements, which will help coastal communities to develop climate 
change adaptation strategies and make decisions on infrastructure 
hardening, erosion and flood controls. Finally, the partnership with 
Canada on extended continental shelf mapping continues with a 7-week 
long expedition later this summer utilizing two icebreakers--the U.S. 
Coast Guard Cutter Healy and the Canadian Coast Guard Ship Louis S. St-
Laurent--to map the seafloor using multibeam sonar, image the 
underlying sediment layers, collect dredge samples and gravity data, 
and conduct under-ice AUV operations.
    NOAA also serves as a tri-lead, along with the Maritime 
Administration and U.S. Coast Guard, on the U.S. Arctic Marine 
Transportation Interagency Action Team (IAT), a subcommittee of the 
U.S. Committee on the Marine Transportation System (CMTS). Section 
307(c) of the 2010 U.S. Coast Guard Authorization Act--Arctic Marine 
Shipping Assessment Implementation--directs the CMTS to coordinate the 
establishment of domestic transportation policy to ensure safe and 
secure maritime shipping in the Arctic. NOAA is working diligently with 
over twelve agency partners on the CMTS Arctic IAT to complete this 
task and ensure consistency with the policies of the National Security 
Presidential Directive 66/Homeland Security Presidential Directive 25. 
The Arctic region poses unique operational challenges for hydrographic 
surveying, such as in predicting future ice conditions, planning 
surveys in advance, and conducting those surveys under harsh 
environmental circumstances. NOAA and its contractors have some 
capability for working in Arctic conditions, but we are currently 
evaluating the best and safest approach to data collection. As 
indicated above, NOAA is also evaluating the technology and strategies 
needed for long-term monitoring of tides, water levels, and currents 
under harsh Arctic conditions.
    Putting good information into the hands of mariners is essential 
for safe navigation and environmental protection, and coastal 
communities and scientists must have the same foundational support for 
good operational and research decisions. NOAA's hydrographic services 
are an essential component of an open Arctic where conservation, 
management, and use are based on sound science to support U.S. economic 
growth and resilient and viable ecosystems and communities.
    Thank you again, Chairman Fleming and Members of the Subcommittee, 
for the opportunity to talk about NOAA's role in the Arctic with 
respect to hydrographic services. We appreciate the time and attention 
the subcommittee is devoting to this important issue, and look forward 
to working with you further on this legislation.
                                 ______
                                 
    Mr. Young. Thank you, Captain. At this time, we have Mr. 
Myers, and you are recognized for five minutes.

 STATEMENT OF GORDON MYERS, EXECUTIVE DIRECTOR, NORTH CAROLINA 
                 WILDLIFE RESOURCES COMMISSION

    Mr. Myers. Thank you, and good morning, Chairman Young, and 
Ranking Member Sablan, and Members of the Subcommittee. I am 
Gordon Myers, Executive Director of the North Carolina Wildlife 
Resources Commission.
    We are a State agency whose mission it is to conserve North 
Carolina's wildlife resources and to provide programs that 
facilitate wildlife-associated recreation in our state. I am 
grateful for the opportunity to come before you this morning 
and provide testimony in support of H.R. 1160.
    The State of North Carolina acquired land to develop 
McKinney Lake in 1933, and the McKinney Lake National Fish 
Hatchery was established several years later. From its 
inception in the late 1930s until 1996, the hatchery was 
operated by the Federal Government.
    In June of 1995, the United States Fish and Wildlife 
Service notified the Wildlife Commission of its decision to 
close this important hatchery. We determined that the hatchery 
and surrounding property would enhance our ability to meet both 
terrestrial and aquatic resource objectives with our agencies.
    Therefore, we worked with the Service to explore the 
possibility of transferring the property to the State. As a 
part of our due diligence, however, we conducted an assessment 
of the dam, which revealed significant deficiencies in the 
emergency spillway.
    Because the conveyance prior to addressing these 
deficiencies would encumber the State with a noncompliant dam, 
an alternative course of action was first developed. In 
November of 1996, we entered into an agreement with the Fish 
and Wildlife Service to transfer operations to the State 
without immediate transfer of the liability or the financial 
encumbrances of the dam.
    Under this agreement the Service granted full use of the 
hatchery to the State, and we became fully responsible for all 
operational costs, as well as improvements to the property, 
except for those attributed to the dam and spillway.
    We have operated the hatchery under multiple agreements 
without interruption since 1996, and during this period, we 
have completed projects to remediate the dam to remove lead 
paint from hatchery residences, as well as other projects.
    Funding for the first two projects was provided to the 
commission through agreement with the Fish and Wildlife 
Service, and we have also completed more than $1 million worth 
of repair and renovations to this facility.
    We are currently planning additional improvements at an 
estimated cost of about $1.7 million, and also allocated 
operating funds in the amount of $366 thousand. This hatchery 
is an important part of our statewide hatchery infrastructure, 
and although it is used adaptively to meet our fish production 
needs statewide, its primary focus is the production of channel 
catfish for our community fishing program.
    This program is an active partnership between the 
Commission and local government to provide public fishing in 
urban areas of our state. This popular program integrates 
fishery management with the infrastructure found in local parks 
to create an enhanced family friendly fishing experience in 
urban areas within the safe confines of a park.
    Our current wildlife management activities on the site 
include management of Long Leaf Pine Forest for providing 
optimal conditions for Federally endangered red cockaded 
woodpeckers.
    House Resolution 1160 stipulates that the property shall 
revert to the United States should the property cease to be 
used for fish and wildlife management purposes. This bill also 
includes conditions that would require the State to allow the 
Service to use the property for propagation of important 
aquatic resources.
    It is our opinion that the terms of this agreement include 
acceptable measures to ensure continued use of the property for 
fish and wildlife conservation, and we are also fully satisfied 
that the bill includes adequate compensation requirements 
should the Service need to utilize the facility.
    In conclusion, since its inception 75 years ago, McKinney 
Lake National Hatchery has helped further fish and wildlife 
conservation within and beyond North Carolina. It is an 
important and necessary element of North Carolina's fish 
hatchery infrastructure.
    Currently, this hatchery enables the Commission to provide 
and sustain opportunities for North Carolinians in all parts of 
our state, but most notably in urban areas. As an element of 
our fish hatchery system, it will provide critical capacity to 
adapt to evolving fish production needs in the future, and 
conveyance of this hatchery to the State would ensure the 
continuation of a 75 year fish and wildlife conservation 
purpose.
    We are fully prepared to remove this encumbrance from the 
Fish and Wildlife Service, and place it upon the North Carolina 
Wildlife Resources Commission, and I believe our consistent 
performance of operational and financial obligations since 1996 
demonstrates our commitment and capacity to uphold this 
responsibility. On behalf of the Wildlife Resources Commission, 
thank you for the opportunity to express our support.
    [The prepared statement of Mr. Myers follows:]

            Statement of Gordon Myers, Executive Director, 
  North Carolina Wildlife Resources Commission, on H.R. 1160 and H.R. 
                                  1670

INTRODUCTION
    Chairman Fleming, ranking member Sablan, and members of the 
subcommittee, I am Gordon Myers, executive director of the North 
Carolina Wildlife Resources Commission (Commission), a state agency 
whose mission is to conserve North Carolina's wildlife resources and 
their habitats and provide programs and opportunities that allow 
hunters, anglers, boaters and other outdoor enthusiasts to enjoy 
wildlife-associated recreation. I am grateful for the opportunity to 
come before you to provide testimony in support of H.R. 1160, The 
McKinney Lake National Fish Hatchery Conveyance Act.
BACKGROUND
    The State of North Carolina acquired land to develop McKinney Lake 
under Title II of the National Industrial Recovery Act (NIRA) of 1933. 
The lake was constructed in 1934 through the Resettlement 
Administration of the WPA. Subsequently, McKinney Lake National Fish 
Hatchery was established in accordance with provisions of NIRA. The 
422-acre parcel includes 24 rearing ponds, a 70-acre water supply lake 
and associated dam, hatchery building, several residences and a small 
lodge. The property also includes approximately 300-acres of forested 
watershed comprised largely of longleaf pine eco-type. From its 
inception until 1996, the federal government operated McKinney Lake 
National Fish Hatchery to support federal and state fishery-management 
objectives through production of warmwater sport fish species.
    In June 1995, the U.S. Fish and Wildlife Service (Service) notified 
the Commission that revised fishery-management responsibilities 
precipitated a decision to discontinue operations at McKinney Lake 
National Fish Hatchery (NFH). Following consultation with the Service, 
we determined that the hatchery and surrounding property would enhance 
our ability to meet state terrestrial and aquatic resource objectives. 
Accordingly, we worked with the Service to explore the potential to 
transfer the property to the State of North Carolina for incorporation 
into the state's fish hatchery and game lands programs. Conveyance to 
state ownership would, however, render McKinney Lake Dam subject to the 
North Carolina Dam Safety Act. Due diligence revealed significant 
deficiencies in the emergency spillway capacity and because property 
conveyance prior to addressing dam deficiencies would encumber the 
state with a noncompliant dam, an alternate course of action was 
developed.
    In November 1996, the Service and the Commission entered into a 
Memorandum of Agreement that provided for the transition of operations 
to the state without immediate transfer of the liability and financial 
encumbrances associated with the dam. Under the terms of the agreement, 
the Service granted to the state a right of use and occupancy of the 
lands and improvements comprising McKinney Lake NFH. The State agreed 
to be fully responsible for all costs and expenses associated with 
operation and maintenance of all facilities and improvements within the 
property limits except for those costs attributed to the dam and 
spillway.
    The Commission and the Service have operated the hatchery under the 
terms of these conditions, without interruption, since November 1996. 
During this period, the Commission administered projects to remediate 
McKinney Lake Dam and abate lead paint from hatchery residences. The 
funding for these projects was provided to the Commission from the 
Service through reimbursable agreements. In addition, the Commission 
has completed the following capital projects with Commission receipts:
        <bullet>  Replacement of four harvest kettles replacement and 
        six water supply inlet structures at a total cost of $874,855
        <bullet>  Renovations to the existing lodge to bring the 
        structure into compliance with fire codes at a total cost of 
        $100,918
        <bullet>  Other miscellaneous projects that include a variety 
        of small renovations to hatchery residences and construction of 
        a public fishing pier and boat launch to enhance public use of 
        McKinney Lake
        <bullet>  We are currently replacing a metal storage building 
        at a estimated cost of $65,000
    The Commission is currently planning for the replacement of the 
remaining harvest kettles and water inlet structures at an estimated 
cost of $1.7 million.
    In addition to capital investment, the Commission has committed 
annual recurring funding for operations in the amount of $360,000.
Current Use
    McKinney Lake National Fish Hatchery is an important element of the 
Commission's statewide hatchery system. It is one of two warmwater fish 
hatcheries operated by the Commission. Although the hatchery is used 
adaptively to meet fish production needs, its current primary focus is 
to produce channel catfish for the Commission's Community Fishing 
Program (CFP). The CFP is an active partnership between the Commission 
and local government, usually municipal or county parks, to provide 
public fishing opportunities in urban areas of North Carolina. This 
popular program integrates intensive fishery management with the 
infrastructure of parks to create enhanced fishing opportunities for 
families seeking enjoyable and economical trips within the safe 
confines of a park. The associated facilities often include disabled 
user accessible fishing piers, fish feeders, fish attractors, rod and 
reel loaners and other park amenities provided by the local partners.
    In addition to providing infrastructure necessary to meet fish 
production objectives, the Commission also provides free public fishing 
access to McKinney Lake. Associated infrastructure includes a fishing 
pier and boat ramp for public use.
    Because the property is also surrounded by state-owned game lands, 
the approximate 300-acres of forested land surrounding the hatchery 
seamlessly integrates with the Commission's wildlife management and 
forest stewardship activities. The forested portion of the property is 
primarily comprised of longleaf pine forest, a priority habitat 
identified in North Carolina's State Wildlife Action Plan. Wildlife 
management activities on the property are largely focused managing this 
important habitat for federally endangered red-cockaded woodpeckers 
(RCW). Specific activities include monitoring, prescribed burning and 
selective timber management to manage for optimal RCW habitat.
    Upon conveyance of the property to the state, we plan to examine 
opportunities to provide hunting access on the forested property 
located at the upper end of the lake.
Terms of Transfer
    H.R. 1160 stipulates that the property shall revert to the United 
States should the property not be used for any purposes relating to 
fishery and wildlife resources management. Further, the bill also 
includes conveyance conditions that would require the State, upon 
request of the Secretary of the Interior, to allow the Service to use 
the property in cooperation with the Commission for propagation of 
critically important aquatic resources.
    The terms of this agreement include acceptable measures to assure 
the perpetuation of fish and wildlife conservation uses for the 
property. The bill also includes adequate compensation requirements 
should the Service need to utilize the facility. Our longstanding 
cooperative partnership with the Service bolsters our confidence that 
any future needs subject to the provisions of Section 2(e) would be 
addressed cooperatively and to the satisfaction of each agency.
CONCLUSION
    In closing, since its inception 75 years ago, McKinney Lake 
National Hatchery has helped further fish and wildlife conservation 
goals within and beyond North Carolina. It is an important and 
necessary element of North Carolina's statewide fish hatchery 
infrastructure. Currently, this hatchery enables the Commission to 
provide and sustain opportunities for North Carolinians in all parts of 
our state, most notably in urban areas, to participate in family 
friendly fishing activities. As an element of our statewide fish 
hatchery system, it will also provide critical capacity to adapt to 
evolving fish production needs in the future. Conveyance of McKinney 
Lake National Fish Hatchery to the State of North Carolina would ensure 
the continuation of the 75-year fish and wildlife conservation purpose 
of this facility.
    We are fully prepared to remove this encumbrance from the Service 
and place it upon the Commission. I believe that subsequent to assuming 
operational and financial obligations in 1996, the Commission has 
demonstrated its full commitment and capacity to uphold this 
responsibility. On behalf of the Commission, thank you for the 
opportunity to express our utmost support H.R. 1160.
Additional Testimony for H.R. 1670, Sikes Act Amendments Act of 2011
    I would like to briefly share with you the support of the 
Association of Fish and Wildlife Agencies, of which all 50 states are 
members, for H.R. 1670, a bill bringing clarity to the Sikes Act 
application on certain Army National Guard bases.
    The Association applauds the significant progress for fish and 
wildlife conservation that has been made through the cooperation of the 
Department of Defense (DoD) installations, U.S. Fish and Wildlife 
Service (USFWS) and State fish and wildlife agencies since the passage 
of the Sikes Act Improvement Act in 1997. We can all be proud of the 
conservation benefits achieved from this often unknown and unheralded 
success story of public lands management on approximately 30 Million 
acres. Our successes have certainly substantiated that not only is 
achievement of the military preparedness mission and sound stewardship 
of the land and its fish and wildlife resources not mutually exclusive, 
they are indeed mutually necessary and beneficial.
    The Association supports H.R. 1670 because it clarifies what we 
believe was originally intended, and that is the need for and 
application of Integrated Natural Resources Management Plans on, and 
funding eligibility for, Army National Guard bases where significant 
natural resources exist, and which installations are held under state 
title. Army National Guard bases are dedicated to fulfilling the 
military preparedness mission, and like other military installations, 
have historically worked closely with the state fish and wildlife 
agencies to enhance installation natural resource conservation. Most 
ANG bases under state title, in fact, have developed and are 
implementing INRMPs. Therefore, the Association supports the clarity 
brought to these bases by H.R. 1670.
                                 ______
                                 
    Mr. Young. Thank you, sir. Mr. Flocken, you are next.

 STATEMENT OF JEFFREY FLOCKEN, DIRECTOR, DISTRICT OF COLUMBIA 
         OFFICE, INTERNATIONAL FUND FOR ANIMAL WELFARE

    Mr. Flocken. Good morning, Mr. Chairman, and Members of the 
Subcommittee. Thank you for the opportunity to testify before 
you today. My name is Jeffrey Flocken, and I am the Washington, 
D.C. Office Director for IFAW, the International Fund for 
Animal Welfare.
    I am here this morning on behalf of both IFAW and Defenders 
of Wildlife. Our groups represent millions of Americans who 
care about polar bears and the integrity of America's laws that 
protect imperiled species, including the Marine Mammal 
Protection Act, and the Endangered Species Act.
    IFAW and Defenders oppose H.R. 991, as it would set a 
terrible precedent for those landmark statutes, and would serve 
the narrow special interests of a small number of trophy 
hunters to the detriment of polar bear and endangered species 
conservation.
    The supporters of this bill are basically making four 
arguments, all of which are flawed. First, they are saying that 
since the bears were legally killed, they should be allowed to 
import them.
    Second, they say that it serves no conservation purpose to 
deny these imports as the bears are already dead. Third, they 
claim to have experienced a taking of their personal property; 
and fourth, they claim to have been treated unfairly.
    But these arguments are not valid, nor do they outweigh the 
harm that would be done by passing H.R. 991. First, the fact 
that these 41 polar bears were legally killed does not justify 
this amendment. The actual killing of the bears was and remains 
legal in Canada.
    An American hunter could legally hunt polar bear in Canada 
before the May 15, 2008 listing, and still can today. What 
became illegal at the time of the listing was the import of the 
trophies, and the cutoff date for imports is and should be the 
date when the expert agency listed the polar bear as threatened 
under the Endangered Species Act, and when it became officially 
recognized as a depleted species under the Marine Mammal 
Protection Act.
    The second claim that they are making for support of H.R. 
991 is that no conservation purpose is served by denying the 
permits because the bears are already dead. This argument 
carries no weight. Anyone who kills an endangered or threatened 
foreign species can say that the species is already dead.
    That argument cannot legally justify the later import of a 
trophy, and this bill is not about the killing of the bears in 
Canada, but about the import into the United States. Denying 
the import of species found to be in danger of extinction, such 
as those 41 polar bears, is one of our best ways to support 
global conservation.
    Third, supporters of the bill claim that the fact that they 
are not able to import their polar bear trophy is the taking of 
their personal property. This is not the case. While the polar 
bear is hunted in Canada, and may be the personal property of 
the hunters, there is no principle in domestic or international 
law suggesting that being denied the right to import items 
constitutes an unlawful taking of property.
    The United States bans numerous products and items from 
import, and those bans are not unlawful simply because the 
importer owns the property. Finally, there is no valid fairness 
argument for these 41 hunters to undercut established 
conservation laws.
    These hunters had fair and substantial notice that the 
species listing was imminent, and that imports could be 
prohibited as a result. The February 2005 petition to list 
polar bears received considerable national and international 
media coverage, and especially impressed targeting the United 
States hunting communities and outdoor enthusiasts.
    Additionally, 16 months prior to the listing of the polar 
bear the United States Fish and Wildlife Service launched a 
targeted outreach campaign aimed at the hunting community to 
inform them that a listing decision was coming, and that such a 
decision could result in the prohibition of import of hunting 
trophies.
    Again, in January of 2008, the Service informed potential 
applicants that a decision on the listing was imminent, and 
that if the species were listed further imports would not be 
authorized.
    Yet, despite these warnings that a listing decision was 
imminent, the 41 hunters decided to take the risk, and go to 
Canada, and hunt these polar bears. They not only chose to hunt 
a species that scientists were saying may be on the brink of 
extinction, but they did so knowing that they would not be able 
to import their trophies if the listing happened, which it did.
    If Congress were to undermine our laws created to dissuade 
Americans from killing endangered species, a clear signal would 
be send that hunters from America can continue to kill globally 
imperiled species with the expectation that Congress will 
create a legal loophole so that they can bring back their 
trophies at a later day.
    Allowing these 41 hunters to bypass these protections 
establishes a precedent that would erode the foundation of how 
the United States has chosen to protect imperiled foreign 
species. Thank you for the opportunity to testify today, and I 
look forward to answering any questions.
    [The prepared statement of Mr. Flocken follows:]

           Statement of Jeffrey Flocken, DC Office Director, 
           International Fund for Animal Welfare, on H.R. 991

    I appreciate the opportunity to testify on H.R. 991, which proposes 
an amendment to the Marine Mammal Protection Act (MMPA) of 1972. I am 
Jeffrey Flocken, Washington D.C. Office Director for the International 
Fund for Animal Welfare (IFAW). On behalf of IFAW, Defenders of 
Wildlife, and our millions of supporters worldwide, we oppose this 
legislation which would set back polar bear conservation efforts and 
create a dangerous precedent for undermining the protections afforded 
under the Marine Mammal Protection Act and the Endangered Species Act.
An Overview of Threats to Polar Bears
    Polar bears have been protected in the U.S. since 1972, when the 
Marine Mammal Protection Act (MMPA) was passed, prohibiting the killing 
of and trade in all marine mammals, including the hunting or 
importation of sport-hunted polar bears. Unfortunately, Congress, at 
the behest of trophy hunting special interest groups, created a 
loophole in 1994 that allowed Americans to hunt polar bears in Canada 
and bring home trophies. Between 1997 and May 15, 2008, over 960 
permits were issued to American hunters by the U.S. Fish & Wildlife 
Service (FWS) for the importation of trophy-hunted polar bear heads and 
hides.
    In May 2007, the U.S. Geological Survey (USGS) released a series of 
reports commissioned by the Department of the Interior concluding that 
by 2050, we will have lost fully two-thirds of the world's polar bear 
populations. The USGS predicted that the remaining polar bears would 
disappear gradually after that, with only a small population hanging on 
to see the next century. Soon after, the International Union for 
Conservation of Nature (IUCN) Polar Bear Specialist Group reached 
similar conclusions--that the polar bear population could drop by 30 
percent in 35-50 years and that polar bears may disappear from most of 
their current range within 100 years.
    Polar bears are expected to suffer such dramatic declines as a 
result of climate change and the resultant reduction of sea-ice which 
serves as critical polar bear habitat. The Arctic Climate Impact 
Assessment reported in 2004 that the covering of summer ice in the 
Arctic has shrunk by 15 to 20 percent in the past 30 years and that 
decline is expected to accelerate. Further predicted reductions of 10 
to 15 percent of annual sea ice and 50 to 100 percent of summer sea ice 
in the next 50 to 100 years presents a critical threat to the species. 
The result of this decline is drowning bears, starvation, litters of 
fewer offspring, and lower cub survival rates.
THE MARINE MAMMAL PROTECTION ACT AND IT'S RELATIONSHIP TO THE 
        ENDANGERED SPECIES ACT
    Before providing some comments on the Amendment proposed by 
Congressman Young, it is important to put the amendment into some 
historical context. In enacting the MMPA in 1972, the House of 
Representatives explained:
        Recent history indicates that man's impact upon marine mammals 
        has ranged from what might be termed malign neglect to virtual 
        genocide. These animals, including whales, porpoises, seals, 
        sea otters, polar bears, manatees and others, have only rarely 
        benefitted from our interest; they have been shot, blown up, 
        clubbed to death, run down by boats, poisoned, and exposed to a 
        multitude of other indignities, all in the interests of profit 
        or recreation, with little or no consideration of the potential 
        impact of these activities on the animal populations involved.
        H.R. Rep. No. 92-707 (1971). Based on these findings, and 
        declaring that ``certain species and population stocks of 
        marine mammals are, or may be, in danger of extinction or 
        depletion as a result of man's activities,'' Congress passed 
        the MMPA to ensure that these species ``not be permitted to 
        diminish beyond the point at which they cease to be a 
        significant functioning element in the ecosystem of which they 
        are a part.'' 16 U.S.C. Sec. 1361(1) and (2).
    To accomplish this objective, the MMPA imposes a moratorium on the 
taking and importation of marine mammals, id. Sec. 1371; see also id. 
Sec. 1372(b), and establishes a scheme under which these activities may 
be permitted by the agency. For the import of species such as the polar 
bear, the principal authority for the agency to issue such permits is a 
provision allowing imports ``for purposes of scientific research, 
public display, or enhancing the survival or recovery of'' the species. 
Id. Sec. 1371(c).
    In 1994, Congress amended the MMPA to permit the import of polar 
bear body parts taken in sport hunts in Canada where certain conditions 
are met, including the approval of hunting for certain polar bear 
populations. Pub. L. No. 103-238, Sec. 5 (1994).
    The MMPA also has always provided special protection for a species 
designated as ``depleted'' under the statute. 16 U.S.C. Sec. 1362(1). 
Of particular relevance here, MMPA Section 102(b) provides that, 
irrespective of the polar bear import provision or any other permit 
authority, once a species is designated as ``depleted'' import permits 
may only be issued ``for scientific research, or for enhancing the 
survival or recovery of a species or stock....'' Id. Sec. 1372(b)(3).
    The 1972 statute defined a ``depleted'' species, inter alia, as one 
that ``has declined to a significant degree over a period of years,'' 
or ``has otherwise declined and that if such decline continues...such 
species would be subject to the provisions of the'' ESA. See Pub. L. 
No. 92-522, Sec. 3(1). In 1981, that definition was expanded to include 
``any case in which...a species or population stock is listed as an 
endangered species or a threatened species under'' the ESA. Pub. L. No. 
97-58, Sec. 1 (1981) (emphasis added). As the House Report on this 
amendment explained, this change ``recognized that species that are 
listed under the Endangered Species Act are, a fortiori, not at their 
Optimum Sustainable Population and, therefore, should be considered 
depleted.'' H.R. Rep. No. 97-228, at 16 (1981).
THE 2009 AMENDMENT
    In May 2008 the FWS listed the polar bear as a threatened species 
under the ESA throughout its range. 73 Fed. Reg. 28,212 (May 15, 2008). 
In listing the species the Service explained that, prior to 1973, the 
polar bear was declining due to ``severe overharvest'' that occurred in 
light of ``the economic or trophy value of their pelts.'' Id. at 
28,238. While the subsequent cessation in large-scale hunting provided 
some protection to the species, the Service found that other threats 
have continued to cause population declines, including climate change-
induced reductions in sea ice; reduced prey availability; and continued 
overharvest in certain areas. Id. at 28,255-28,292. In light of these 
threats, the Service concluded that the polar bear is likely to become 
an endangered species ``within the foreseeable future,'' and 
consequently listed the species as threatened under the ESA. Id. at 
28,238. Moreover, while the agency has the authority under certain 
circumstances to limit a species' protection to certain discrete 
portions of its range, the FWS determined that the species was 
threatened throughout its range, including the polar bear populations 
in Canada.
    Pursuant to MMPA Section 3(1), by virtue of the ESA listing the 
polar bear became a ``depleted'' species under the MMPA. 16 U.S.C. 
Sec. 1362(1). This, in turn, triggered MMPA Section 102(b)'s 
proscription on polar bear import permits, limiting them to those 
issued for scientific research or enhancement of survival purposes. Id. 
Sec. 1372(b). Accordingly, because the species is threatened with 
extinction, the FWS may no longer allow trophy hunters to kill polar 
bears in Canada and import their body parts into the United States.
    The proposed amendment would circumvent this existing regulatory 
scheme, authorizing the FWS to issue import permits for polar bears 
killed from previously approved populations in Canada up until the date 
the species was listed under the ESA. The amendment should be rejected 
for both legal and policy reasons.
    The amendment fundamentally undermines the critical relationship 
between the protections that species presently receive under the ESA 
and the MMPA. Under the MMPA, Congress recognized that a species may be 
``depleted''--thereby warranting a ban on imports--even before it 
becomes so imperiled that it requires listing under the ESA. Indeed, a 
species can be designated as depleted simply because it is below its 
``optimum sustainable population,'' 16 U.S.C. Sec. 1362(1)(A)--which is 
the ``number of animals that will result in the maximum productivity of 
the population or the species.'' Id. Sec. 1362(9) (emphasis added).
    Under this amendment, however, although the polar bear is now 
listed under the ESA, it will not be uniformly treated as depleted 
under the MMPA. Instead, the FWS will continue to allow certain 
recreational hunters to import their polar bear trophies into this 
country.
    The fact that the amendment is limited to those polar bears killed 
before the species was listed does not change this fact. The ban on 
imports of imperiled species is a critical tool by which the United 
States can impact the treatment of those species in other countries. 
Certainly, hunters who wish to bring their trophies into this country 
will have significantly less incentive to participate in a sport hunt 
if that import is prohibited. The import ban also sends an important 
signal to our conservation partners in other countries, helping to 
generate efforts that might improve the species' status so that imports 
may once again be permitted.
    Allowing continued imports of polar bears, by contrast, sends 
exactly the wrong signal. The polar bear has become a poster child for 
species' conservation in a world rapidly changing due to human impacts. 
To allow sport-hunters to bring polar bear body parts into this country 
after the expert agency has decided that the species is threatened with 
extinction broadcasts that the protection of the species is not that 
important, and that the interests of sport-hunting take precedence over 
the interests of the long-term protection of the polar bear.
    In this regard, it is also critical to recognize that nothing 
dramatic happened to the polar bear's on-the-ground condition in May 
2008. The species was not imperiled the day after the listing, but in 
fine health the day before. Instead, as the Service recognized in 
listing the species, the polar bear faces ongoing and long-term threats 
to its existence. Therefore, from a conservation perspective there is 
no principled basis to distinguish between polar bears killed before 
the listing and those killed afterwards. In short, now that the species 
is listed imports of trophies should be prohibited, regardless of when 
the species was killed.
    The fact that the listing became effective on the date it was 
published in the Federal Register, and not after a thirty day ``grace 
period'' as is often the case, also does not support allowing imports 
of sport-hunting trophies after the species was listed. As a federal 
district court judge explained when she rejected the sport-hunter's 
argument that a special exception should be made for hunters who had 
submitted import applications for bears killed prior to the listing, 
sport-hunters ``assumed the risk that they would be unable to import 
their trophies'' when they chose to engage in sport-hunting despite the 
fact that the species was under consideration for listing under the 
ESA. Center for Biological Diversity v. Kempthorne, No. 08-1339 (N.D. 
Cal. July 11, 2008). In fact, the country's largest hunting 
organizations repeatedly warned their members that a listing would 
result in imports of polar bear trophies being prohibited. Despite 
being given more than a year's notice by the FWS and being warned by 
hunting organizations, individuals chose to participate in hunts. 
Equity does not demand that Congress now act to allow the import of 
trophies taken by hunters who assumed the risk that future import would 
be prohibited.
    Moreover, most, if not all, of the hunters who submitted import 
applications before the listing could not have obtained an import 
permit within the grace period in any event, given the notice and 
comment process involved in obtaining such a permit. In written 
testimony provided by Dr. Rowan Gould to this Subcommittee's September 
22, 2009 hearing on H.R. 1054, the FWS stated that they would have been 
able to issue only twenty of the pending permits prior to the 30-day 
grace period's expiration. Eight of the twenty hunters would then only 
have had two days to import their trophies.
    It is also crucial to appreciate that this amendment is a stark 
departure from earlier amendments allowing these imports. While 
Congress has twice amended the statute to allow imports of polar bears 
killed years earlier, at neither time was the species listed under the 
ESA and depleted under the MMPA. Moreover, while hunters certainly knew 
the species was likely to be listed--therefore banning imports--this 
amendment would allow hunters who killed a polar bear just weeks, or 
even days, before the listing, to bring their trophies into this 
country. Further, the overbroad text of this bill would allow the 
import of even those polar bears trophies killed in Canada for which no 
import permit was submitted to FWS prior to the listing of the species 
on May 15, 2008. Congress should not support the perverse incentives 
created by such an approach. Indeed, particularly if Congress passes 
this amendment, hunters will assume that if they continue to hunt polar 
bears in Canada despite the ESA listing, provisions will be made to 
allow their importation in the future.
    This brings me to the pending litigation. The ESA listing is 
presently being challenged in multiple lawsuits pending in federal 
court for the District of Columbia, including by sport-hunting groups. 
This litigation is yet another reason that the proposed amendment is 
both ill-conceived and ill-timed.
    If Congress passes this amendment, and then the plaintiffs lose the 
pending litigation and the court upholds the listing, we could well be 
here again in a few years. At that time, sport-hunters might seek an 
amendment allowing the import of trophies for polar bears killed before 
the judicial opinion was issued. Their argument then, much like their 
argument now, would be that when they went on their hunts in 2009, the 
species' status was ``uncertain'' because of the litigation. Because 
they believed the listing should and would be set aside, they would 
argue, they should not be penalized by not allowing their trophies to 
be imported. Moreover, they would also argue, since the polar bears 
killed in 2009 are already dead, allowing their import would not impact 
the conservation of the species. The fact that passing the amendment 
today allows that argument in the future simply highlights why the 
amendment makes no sense now, just as it will make no sense then. In 
short, the only reasonable line to draw for imports is the one already 
drawn by the existing regulatory scheme: banning sport-hunted imports 
at the time the species is listed.
    Finally, if the sport-hunting groups prevail in the current 
litigation, the amendment under consideration today would not be 
necessary. If the species were no longer listed as threatened, it would 
no longer be depleted, and the original polar bear import provision 
would go back into effect, barring some other legislative development.
    Alternatively, the sport-hunting groups are also arguing to the 
court that the polar bear import provision remains in effect despite 
the listing. If they prevail on this alternative argument, imports 
would once again be permitted on that basis. In light of these 
possibilities, it is at the very least premature for Congress to 
consider this amendment at this time.
CONCLUSION
    Through the interplay between the ESA and the MMPA, Congress has 
already struck a balance between the conservation needs of marine 
species such as the polar bear and the other interests, including those 
of sport-hunters. We urge Congress not to upset that balance by 
permitting sport-hunters who have gone to Canada to kill polar bears to 
continue to import their body parts into this country, despite the fact 
that the FWS has determined that the species is threatened with 
extinction throughout its range, including Canada. Thank you for the 
opportunity to submit these comments.
                                 ______
                                 
    Mr. Young. Mr. Smith, I admire what I call a stoic approach 
to someone sitting next to you that definitely said what is not 
true. So I appreciate your patience. So, Mr. Smith, you are up 
for five minutes.

               STATEMENT OF STEVE SMITH, MEMBER, 
                       DALLAS SAFARI CLUB

    Mr. Smith. Good morning, Mr. Chairman and Members of the 
Committee. I am here today speaking as a citizen who has 
suffered the taking of my property because of Federal 
regulatory action.
    I appreciate the opportunity today to tell my story. I was 
told by a booking agent in January of 2008 that the waiting 
list for polar bear hunts was about five years. So you can 
imagine my excitement when that agent called me the following 
March to tell me of a hunt which had just become available in 
early May.
    Besides the adventure, I knew that my participation in this 
hunt would help conserve the bear population and provide an 
income source to the Inuit people. I arrived in Resolute, 
Nunavut, Canada, to meet my guides. We were going to hunt from 
dog sleds just as their ancestors had been doing for 
generations.
    The subject of a possible rulemaking by the United States 
which would affect polar bear hunting did come up, but the 
people of Resolute were not too concerned. They lived with 
these bears and felt that they were in no way endangered.
    After many days of subzero temperatures and challenging 
frozen terrain, I was elated to have success on this difficult, 
yet exhilarating hunt. After passing on several bears, I took a 
male polar bear, which was later determined to be 23 years old. 
This was on the 11th of May of 2008, three years ago yesterday.
    Of course, I wanted to bring my bear home to create a 
taxidermy mount. I had contacted the United States Fish and 
Wildlife Service prior to departing for the hunt to ensure that 
my paperwork was prepared and submitted properly.
    After the hunt, and while still in Canada, I faxed them 
additional required information and began making arrangements 
to have my bear expedited to Texas. This is when I learned that 
the United States Interior Department had made its decision on 
the status of the polar bear, listing it as threatened under 
the Endangered Species Act.
    The ruling was then made effective immediately, May 15th, 
four days after I took my bear. This is something which I don't 
fully understand, and from which I have never been given a 
reason.
    So not only was I shocked to hear the ruling, but even more 
astounded to learn that importation of my legally hunted polar 
bear, which was taken prior to the Interior Department's 
decision, was banned under the Marine Mammal Protection Act.
    I had properly submitted my paperwork to the United States 
Fish and Wildlife Service for their mandatory 30 day review 
period. I find it distressing that the government required me 
to abide by a 30 day review period for importation, but with 
this ruling, it instantaneously changed its import policy.
    While I will never lose the experience, a taxidermy mount 
would have been my lasting memento and cannot happen since this 
regulation effectively confiscated my poplar bear.
    The bear hide is now in cold storage in Canada. The longer 
it remains in storage, the greater the risk it could be ruined. 
I am asking you to support enactment of H.R. 991. This simple 
bill will do only one thing. It will allow me and the other 40 
similarly affected hunters in this country to import the bears 
we legally hunted.
    It will not change the ESA listing. It will not allow 
future bear imports. It will only simply restore my property to 
my possession. This issue is not about hunting. It is a simple 
matter of returning property that was effectively taken by 
regulatory action.
    I made an enormous investment in my polar bear hunt, and 
the government has stripped me of my property. With the 
addition of storage fees, and other expenses, I have now spent 
in excess of $50,000.
    In the three years since my hurt, I have shared my story 
with many people, both hunters and non-hunters, and I have yet 
to find anyone who believes that denying the import of my 
legally taken bear is justifiable.
    I am not questioning others rights to champion bears if 
they feel that their cause is just, but I am questioning why 
there is such a determined effort to blocking the importation 
of these particular bears since, to put it bluntly, these 41 
bears are beyond saving. Should not their focus be elsewhere?
    I sincerely hope that you will consider and cosponsor the 
enactment of H.R. 991. I would like to thank the Dallas Safari 
Club for assisting me in my effort to testify today, and 
appreciate the position the club has taken to help move this 
legislation forward.
    Mr. Chairman, thank you once again for the opportunity to 
tell my story to the Committee. I appreciate your careful 
consideration of this legislation.
    [The prepared statement of Mr. Smith follows:]

   Statement of Steve Smith, Member, Dallas Safari Club, on H.R. 991

    Mr. Chairman, Members of the Committee, I am here today speaking as 
a citizen who has suffered the taking of my property because of federal 
regulatory action. I appreciate the opportunity today to tell my story.
    I was raised in a small east Texas community and learned the values 
of hunting and wildlife conservation from my father who introduced me 
to hunting at the age of nine. I took my first deer at about age eleven 
with my mother sitting with me in the deer stand. She too developed a 
love for hunting and the outdoors. My father, knowing my enthusiasm for 
the sport of hunting and the outdoors, encouraged me to pursue a career 
with a firearms or ammunition company as a tester, so I could travel 
the world as a hunter. We were both particularly fascinated with 
hunting in Africa which seemed so exotic to us. However, after seeing a 
television show on hunting the polar bear in the Arctic, my dad thought 
that would be the ultimate hunt. He passed away when I was in high 
school and never got to experience more than the duck and deer hunting 
we shared together. But I never forgot our conversations about that 
ultimate hunting trip.
    After attending college and working for several years I was 
fortunate enough to be able to afford to resume the hunting that I 
loved so much as a young man. I hunted several North American species 
in the U.S. before turning my focus to hunting in other parts of the 
world.
    In January of 2008 I decided to inquire about the possibility of 
hunting polar bear in the Arctic and after getting referrals from 
others in the hunting community I contacted a booking agent who 
informed me that the waiting list to hunt polar bear was about five 
years. I was disappointed but decided to focus on other upcoming hunts 
and travels. As an after thought I told the agent that if there 
happened to be a cancellation to please contact me. He laughed and said 
that in his twenty years of booking hunts no one had ever cancelled a 
polar bear hunt.
    So you can imagine my shock when in March that same booking agent 
called to inform me that another hunter needed to cancel his hunt. The 
hunt date was early May of 2008. I didn't have much time to prepare but 
jumped at the opportunity. I began purchasing the necessary cold 
weather gear, booking flights and lodging and working with a firearms 
expert on how my rifle would respond in the Arctic conditions.
    Besides the adventure, I knew that my participation in this hunt 
would help conserve the bear population and provide an income source to 
the Inuit people. When I arrived in Resolute, Nunavut, Canada the day 
before my guided hunt was to begin, I met many of the locals whose 
livelihood depended on hunting. My guides and I were going to hunt from 
dogsleds just as their ancestors had been doing for several 
generations. They were a wealth of information on the polar bear 
habitat and population. The subject of a possible ruling by the U.S. 
Fish and Wildlife which could prohibit future importation of polar bear 
trophies to the United States did come up, but the people of Resolute 
could not really understand the concern since they had lived with and 
hunted these bears for generations and felt that they were in no way 
endangered. They already understood and practiced careful conservation 
of these bears which they considered a very precious natural resource.
    After many days of inclement weather, challenging frozen terrain on 
a bumpy dogsled, and hunting and sleeping in subzero temperatures, I 
was elated to have success on this difficult yet exhilarating hunt. 
After encountering and passing on several bears which were either 
females or young males I took a male polar bear which was later 
determined to be twenty-three years old. His facial hair was worn off 
from years of diving through the ice and his teeth were old and broken. 
I took this bear on the 11th of May 2008, which was three years ago 
yesterday.
    Of course I wanted to bring my bear home to create a taxidermy 
mount as a symbol of this amazing experience. I had contacted U.S. Fish 
and Wildlife prior to departing for the hunt to ensure that my 
paperwork was prepared and submitted properly. After returning from the 
ice I faxed the remaining required information to them while still in 
Canada. I made arrangements for my bear to be expedited to my 
taxidermist in Texas. This is also when I was informed by the people of 
Resolute that the U.S. Interior Department had made it's ruling on the 
status of the polar bear. The ruling took effect on May 15--four days 
after I took my bear. The local people were understandably disappointed 
and many voiced their opinion that this ruling was interfering with the 
way in which they had conserved and harvested polar bears.
    I had properly submitted my paperwork to the U.S. Fish and Wildlife 
Service for their mandatory 30-day review period. I hope you can 
understand my surprise and dismay when the Interior Department listed 
the polar bear as ``threatened'' under the Endangered Species Act 
(ESA). The ruling was then made effective immediately--something which 
I don't fully understand and for which I have never been given a 
reason. Not only was I shocked to hear this ruling, but even more 
astounded to learn that the importation of my legally hunted polar 
bear, which was indeed taken prior to the Interior Department ruling, 
was not going to be allowed. As a result of this ruling, U.S. hunters 
are now banned from importing these legally-harvested polar bears into 
the United States under the Marine Mammal Protection Act. With that, I 
basically lost my investment in this trip.
    While I'll never lose the experience, the polar bear taxidermy 
mount, which would have been my lasting trophy, cannot happen under 
current laws, and this regulation effectively confiscated my legally 
taken polar bear. Right now, the bear hide and skull are in cold 
storage in Baltimore, Ontario, Canada. I hesitate to spend the money to 
have the taxidermy work done in Canada without knowing when, or if, I 
will ever be able to import it to my home, and yet the longer the hide 
sits unmounted in storage, the greater the risk that it will be ruined. 
I find it distressing that the government required me to abide by a 30-
day review period before importation, but with this ruling it 
instantaneously changed its import policy.
    I am asking you to support enactment of H.R. 991. This simple bill 
will do only one thing--it will allow me and the other 40 similarly 
affected bear hunters in this country to import the bears we legally 
hunted. It will not change the ESA listing. It will not allow future 
bear imports. It will simply restore my property to my possession.
    This issue is not about hunting. It's a simple matter of returning 
property that was effectively taken by regulatory action. I made an 
enormous investment in my polar bear expedition and the government has 
effectively stripped me of my property. With the addition of storage 
fees and other expenses I have now spent in excess of $50,000.
    This is a deeply personal issue that has had an enormous impact on 
me. In the three years since my hunt I have shared my story with many 
people, both hunters and non-hunters, and I have yet to find anyone who 
agrees that this denial of import of my legally taken trophy is fair or 
appropriate. I do not understand why there is any opposition to the 
importation of these legally and ethically hunted polar bears. I am not 
questioning others rights to champion bears if they feel their cause is 
just, but I am questioning why there is such a determined effort to 
blocking the importation of these particular bears since, to put it 
bluntly, these forty-one bears are beyond saving. Shouldn't their focus 
be elsewhere?
    I sincerely hope you will consider, co-sponsor, and support 
enactment of H.R. 991.
    I would like to thank the Dallas Safari Club in assisting me in my 
effort to testify today and appreciate the position the Club has taken 
to help move this legislation forward.
    Mr. Chairman, thank you once again for the opportunity to tell my 
story to the Committee. I appreciate your careful consideration of this 
legislation.
                                 ______
                                 
    Mr. Young. Thank you, and I want to compliment the panel 
for being on time. It is really very well done. Usually they 
have to go over and I have to go tappy-tap-tap. But thank you. 
It shows a little bit of professionalism. Ranking Member.
    Mr. Sablan. Well, thank you very much, Mr. Chairman. Mr. 
Chairman, I ask for unanimous consent to enter into the record 
a statement in opposition to H.R. 991 submitted by the Humane 
Society of the United States.
    Mr. Young. I may not agree to that. You know that.
    [The prepared statement by the Humane Society follows:]

Statement submitted for the record by The Humane Society of the United 
States on H.R. 991, a Bill to Amend the Marine Mammal Protection Act of 
1972 to Allow Importation of Certain Polar Bear Trophies Taken in Sport 
                            Hunts in Canada

    The Humane Society of the United States is grateful to the 
Subcommittee for the opportunity to submit written testimony in 
opposition to H.R. 991, a bill to amend the Marine Mammal Protection 
Act of 1972 to allow importation of certain polar bear trophies taken 
in sport hunts in Canada. On behalf of The HSUS, the nation's largest 
animal protection organization, and our more than 11 million 
supporters, we strongly oppose this legislation, which would roll back 
polar bear conservation efforts and set a dangerous precedent for 
gutting the protections provided under the Marine Mammal Protection Act 
and the Endangered Species Act.
Overview of the Threats to Polar Bears
    The polar bear has been protected in the U.S. since 1972, when the 
Marine Mammal Protection Act (MMPA) was passed, which prohibited the 
killing of and trade in all marine mammals, including the hunting or 
importation of sport-hunted polar bears. Unfortunately, in 1994 the 
trophy hunting lobby tore a loophole in the MMPA, allowing more than 
900 sport-hunted polar bear trophies to be imported into the U.S. from 
Canada since 1997. \1\
---------------------------------------------------------------------------
    \1\ 103 Pub. L. No. 238, Sec. 4, 108 Stat. 532 (1994)
---------------------------------------------------------------------------
    In May 2008, the polar bear was listed as ``threatened'' under the 
Endangered Species Act (ESA) and from that point on the MMPA prohibited 
all importation of sport-hunted polar bears into the U.S., as polar 
bears are now considered ``depleted'' under that statute. \2\ These 
bears are under serious threat from global climate change and should 
not be forced to contend with systematic pressure from trophy hunters 
to roll back long-sought protections.
---------------------------------------------------------------------------
    \2\ 73 Fed. Reg. 28,212 (May 15, 2008); 16 U.S.C. 
Sec. Sec. 1362(1)(C), 1371 (a)(3)(B),
---------------------------------------------------------------------------
Melting Sea Ice
    A decline in polar bear numbers in recent years has been linked to 
the retreat of sea ice--a critical hunting ground for polar bears--and 
its formation later in the year. Warming temperatures also break up sea 
ice earlier, and this trend is expected to continue. Monitoring has 
noted a significant decline in minimum sea ice extent over the past few 
decades, equating to a 23,328 sq mi loss of ice per year, and this loss 
appears to be accelerating. \3\ The Arctic is predicted to be 
seasonally ice-free by the end of the 21st century, \4\ which poses a 
considerable threat to the species. Some scientists believe that the 
Arctic may be ice free during the summer in as little as 30 years. \5\
---------------------------------------------------------------------------
    \3\ 73 Fed. Reg. 28,212 (May 15, 2008), p. 28,220.
    \4\ 73 Fed. Reg. 28,212 (May 15, 2008), p. 28,230.
    \5\ Wang, M. and J. E. Overland. 2009. A sea ice free summer Arctic 
within 30 years? Geophys. Res. Lett. 36: L07502, doi:10.1029/
2009GL037820.
---------------------------------------------------------------------------
    Melting ice has resulted in a decreased prey base, forcing bears to 
swim longer distances to obtain food, exhausting them, which can lead 
to drowning. \6\ Polar bears have been forced ashore before they have 
had time to build up sufficient fat stores, resulting in thinner, 
stressed bears, decreased reproductive rates, and lower juvenile 
survival rates.
---------------------------------------------------------------------------
    \6\ 73 Fed. Reg. 28,212 (May 15, 2008), p. 28,262.
---------------------------------------------------------------------------
Pollutants
    The Arctic is also considered a ``sink'' for environmental 
contaminants, including heavy metals and organochlorines, which are 
carried northward in rivers, oceans and air currents. These toxins are 
accumulated at higher levels along the food chain and researchers have 
found high levels of pollutants in polar bears, which can severely 
compromise the animals' health and reproductive capacity. The lead 
author of a study recently published in the Journal of Zoology, which 
details the problem of polar bears becoming smaller due to these 
environmental threats, stated that the polar bear is ``one of the most 
contaminated individuals in the world.'' \7\
---------------------------------------------------------------------------
    \7\ Pertoldi, C., C. Sonne, R. Dietz, N. M. Schmidt, and V. 
Loeschcke. 2009. Craniometric characteristics of polar bear skulls from 
two periods with contrasting levels of industrial pollution and sea ice 
extent. Journal of Zoology 279: 321-328.
---------------------------------------------------------------------------
Starvation and Cannibalism
    There are increasing reports of starving polar bears in the Arctic 
attacking and feeding on one another. In 2006, a new study by American 
and Canadian scientists reviewed three examples of polar bears preying 
on each other. \8\ One incident was documented in 2004 in Alaska, in 
which a male polar bear broke into the den of a female polar bear and 
killed her shortly after she gave birth. During 24 years of research in 
northern Alaska's southern Beaufort Sea region and 34 years in 
northwest Canada, the researchers had never before seen incidents of 
polar bears stalking, killing and eating other polar bears. One of the 
researchers stated, ``It's very important new information. It shows in 
a really graphic way how severe the problem of global warming is for 
polar bears.'' \9\
---------------------------------------------------------------------------
    \8\ Amstrup, Steven C., et al. Recent observations of intraspecific 
predation and cannibalism among polar bears in the southern Beaufort 
Sea. Polar Biol (2006). http://www.polarbearsinternational.org/sites/
default/files/scientists/den_predation_2006.pdf
    \9\ http://www.washingtonpost.com/wp-dyn/content/article/2006/06/
12/AR2006061201266.html
---------------------------------------------------------------------------
Population Declines
    The over-hunting of adult polar bears can cause a catastrophic 
crash in their population. Well over half of the polar bear populations 
are either of unknown, severely reduced, or declining status. The 
International Union for Conservation of Nature (IUCN) Red List of 
Threatened Species reasons that ``a potential risk of over-harvest due 
to increased quotas, excessive quotas or no quotas in Canada and 
Greenland and poaching in Russia'' are contributing to this decline. 
\10\ According to the results of a 2009 meeting of the IUCN's Polar 
Bear Specialist Group, of the 19 discrete polar bear populations 
worldwide, only one, in the Canadian high Arctic, is increasing. Three 
populations appeared to be stable, while seven are too poorly monitored 
to know their status. The remaining eight populations are declining. 
The previous meeting in 2005 concluded that only five populations were 
in decline at that time.
---------------------------------------------------------------------------
    \10\ http://www.iucnredlist.org/apps/redlist/details/22823/0
---------------------------------------------------------------------------
    According to the U.S. Geological Survey, the world's population of 
20,000 to 25,000 polar bears will decline sharply as their habitat 
continues to shrink. As their habitat melts, polar bears will struggle, 
lead shorter lives, produce fewer or no offspring, and the survival 
rate of their offspring will be reduced. Steven Amstrup of the USGS 
stated, ``Our results have demonstrated that as the sea ice goes, so 
goes the polar bear.'' \11\ He stated that polar bears in their 
southern range will die off first as sea ice melts, as they are forced 
to come ashore earlier in the year, facing food shortages before they 
have stored enough fat to last through the season.
---------------------------------------------------------------------------
    \11\ http://news.nationalgeographic.com/news/2007/09/070910-polar-
bears.html
---------------------------------------------------------------------------
Hunters Were Well Aware of the Risks to Trophy Imports
    The trophy hunters who claim they were harmed by the threatened 
listing had sufficient warning that the polar bear would likely be 
listed and that their trophy import applications would likely be 
denied. Moreover, as described below, these trophy hunters have already 
had their pleas for special treatment rejected by a federal court, and 
by the U.S. Fish and Wildlife Service (USFWS). Congress should not bail 
them out now.
    The USFWS proposed to list the polar bear in January 2007, 
triggering an ESA requirement that the USFWS finalize the listing by 
January 2008. The actual listing did not occur until months later, in 
May 2008. The USFWS's listing decision was unlawfully delayed such that 
imports were allowed for several months beyond the point at which they 
should have been halted, and yet hunters have still argued for 
importation of more trophies.
    In fact, most if not all of the 41 polar bear trophies that would 
be affected by H.R. 991 were shot in bad faith, since the dates of the 
sport hunts occurred in late 2007 or early 2008--after the agency and 
hunting groups provided ample warning that trophy imports might soon be 
barred.
    Several other imports are now disallowed under the MMPA by virtue 
of the ``depleted'' status of the species, such as imports for public 
display purposes. \12\ Allowing polar bear trophies to be imported 
despite their depleted status would create substantial inequity among 
other potential import applicants, and U.S. trophy hunters should not 
be given preferential treatment.
---------------------------------------------------------------------------
    \12\ 16 U.S.C. Sec. 1371(a)(3)(B).
---------------------------------------------------------------------------
Repeated Warnings by Hunting Groups
    Even the largest hunting organizations warned their members 
repeatedly, ensuring that trophy hunters who shot polar bears prior to 
their listing under the ESA were given more than sufficient notice 
about the impending listing. Conservation Force, a group that is 
leading the campaign to allow the importation of additional sport-
hunted polar bear trophies into the U.S., repeatedly issued stern, 
unambiguous warnings to its members. In the group's December 2007 
newsletter, which was e-mailed to members in November, nearly six 
months before the species was listed, it stated:
    ``American hunters are asking us whether they should even look at 
polar bear hunts in light of the current effort by the U.S. Fish & 
Wildlife Service to list this species as threatened. The listing, 
you'll recall, will trigger provisions in the Marine Mammal Protection 
Act banning all polar bear trophy imports to the US,'' and that even 
though it was unclear what the final outcome would be, ``[t]he bottom 
line is, no American hunter should be putting hard, non-returnable 
money down on a polar bear hunt at this point. Also, Americans with 
polar bear trophies still in Canada need to get them home soon or risk 
losing them. . .the threat to polar bear hunting is real and 
imminent.'' \13\
---------------------------------------------------------------------------
    \13\ Conservation Force. ``The Hunting Report'' Newsletter. 
December 2007. Volume 27, Number 12. Page 9.
---------------------------------------------------------------------------
    In Conservation Force's newsletter the following month, members 
were adamantly warned: ``It may be the end of the world as we know it'' 
and ``the end of the modern world in which we live.'' \14\ Members were 
also warned that ``we feel compelled to tell you that American trophy 
hunters are likely to be barred from importing bears they take this 
season. Moreover, there is a chance that bears taken previous to this 
season may be barred as well. American clients with polar bear trophies 
still in Canada or Nunavut need to get those bears home.'' \15\
---------------------------------------------------------------------------
    \14\ Conservation Force. ``The Hunting Report'' Bulletin. January 
2008. Volume 28, Number 1. Page 2.
    \15\ Conservation Force. ``The Hunting Report'' Extra Bulletin. 
January 9, 2008.
---------------------------------------------------------------------------
    In April 2008, Conservation Force told its members, ``Many hunters 
have forgone their hunts rather than risk that the bear may be listed 
and trophy imports will probably be prohibited to all hunters who don't 
have a permit in hand before the effective date of the final listing 
rule.'' \16\ In a bulletin titled ``Grim News For Polar Bear Hunters,'' 
Conservation Force stated that ``[t]he bottom line here is, the service 
is widely expected to list some or all of the polar bear populations as 
threatened next month, and that will stop all imports of those listed 
immediately.'' After Conservation Force personally called the USFWS, it 
was confirmed that ``No already-permitted bears would be allowed into 
the U.S. after May 15. End of story. As for unpermitted bears, the news 
was even bleaker. At this point, there was no time to even get a 
permit.'' \17\
---------------------------------------------------------------------------
    \16\ Conservation Force. ``The Hunting Report'' Bulletin. April 
2008. Volume 28, Number 4. Page1.
    \17\ Conservation Force. ``The Hunting Report'' Extra Bulletin. 
April 29, 2008.
---------------------------------------------------------------------------
    Safari Club International members were informed about the potential 
listing in no less than eight different newsletters sent from the 
organization. \18\ One of these even stated that, ``If some or all of 
the polar bear populations are listed, the FWS has indicated that 
imports of trophies from any listed populations would be barred as of 
that date, regardless of where in the process the application is.'' 
\19\ The U.S. Sportsmen's Alliance also informed its members in at 
least one of its newsletters. \20\
---------------------------------------------------------------------------
    \18\ Safari Club International. ``SCI Action Alert'' E-mail. 
September 21, 2007; Safari Club International. ``In the Crosshairs'' E-
mail bulletin. October 4, 2007; Safari Club International. ``In the 
Crosshairs'' E-mail bulletin. October 19, 2007; Safari Club 
International. ``In the Crosshairs'' E-mail bulletin. October 23, 2007; 
Safari Club International. ``In the Crosshairs'' E-mail bulletin. 
January 7, 2008; Safari Club International. ``In the Crosshairs'' E-
mail bulletin. February 22, 2008; Safari Club International. ``In the 
Crosshairs'' E-mail bulletin. April 17, 2008.
    \19\ Safari Club International. ``In the Crosshairs'' E-mail 
bulletin. April 29, 2008.
    \20\ U.S. Sportsmen's Alliance. ``On Target'' e-mail newsletter. 
October 31, 2007.
---------------------------------------------------------------------------
    After being given more than a year of notice from the USFWS and 
warnings from various hunting organizations, some chose to either book 
a hunt in the few months prior to the listing, or chose to wait to 
submit an application to import their trophies even after the species 
was listed. These individuals did so at their own risk.
    In fact, the number of polar bear trophies imported into the U.S. 
rose dramatically in advance of the listing--to 112 trophies in 2007, 
more than doubling the previous year's number of 52 imports. Hunting 
groups were urging people to get their polar bears before the listing 
took effect, and that's clearly what most hunters did. These last few 
bears killed simply represent poor planning on the part of a few 
hunters who didn't listen, when most of their counterparts knew what 
was coming and rushed in to get their bears. It's a self-inflicted 
problem, and now they're crying over spilt milk.
Cases in the Federal Courts
    This very issue of whether to allow sport-hunted polar bear trophy 
imports has already been considered by a federal court. In 2008, as 
part of the litigation over USFWS's listing decision, several hunting 
groups asked the federal court for the Northern District of California 
to order the USFWS to allow the importation of trophies of bears killed 
prior to the ESA listing. \21\
---------------------------------------------------------------------------
    \21\ CBD, et al. v. Kempthorne, Civ. No. 08-1339 CW (N.D. 
California).
---------------------------------------------------------------------------
    The USFWS, under the Bush Administration, argued strongly in court 
against requiring the agency to allow imports of polar bears killed 
prior to the listing. The government responded to the hunters' request 
by noting that allowing importation would severely undermine current 
MMPA provisions. The MMPA specifically prohibits the importation of any 
``depleted'' animal, regardless of when the animal was taken. \22\
---------------------------------------------------------------------------
    \22\ 16 U.S.C. Sec. 1371(a)(3)(B).
---------------------------------------------------------------------------
    The government's brief in the case noted, ``As a result of the 
polar bear's depleted status under the MMPA, no importation of polar 
bear trophies from Canada is permitted. . ..The Court should decline to 
order Defendants to grant special permission for the import of polar 
bear trophies. . .'' \23\ The agency added, ``Therefore, when [the 
USFWS] issued the final rule listing the polar bear as threatened under 
the ESA with an immediate effective date, the polar bear automatically 
gained depleted status under the MMPA as of May 15, 2008. Because the 
polar bear now has depleted status under the MMPA, the statute 
specifically precludes importation of polar bears or polar bear parts 
except for scientific research purposes, photography for educational or 
commercial purposes, or enhancing the survival or recovery of the 
species. See id. Sec. 1371(a)(3)(B). Importation of sport-hunted 
trophies under Section 1374(c)(5) is not included in the list of 
allowable exceptions.'' \24\
---------------------------------------------------------------------------
    \23\ Defendants' Supplemental Brief on Import of Polar Bear 
Trophies, Civ. No. 08-1339, Dkt. No. 81, at 2 (May 27, 2008).
    \24\ Id. at 5.
---------------------------------------------------------------------------
    The USFWS also noted that allowing the importation of sport-hunted 
polar bear trophies from Canada ``would be inappropriate'' because the 
agency would have to go back and process applications for some pre-
listing trophies, which ``would be burdensome for [the agency], and 
confusing for the regulated community.'' \25\ Further, the USFWS 
explained that in order to allow importation, the agency would have to 
withdraw and amend the listing rule, which ``would be inequitable'' 
given the substantial time and resources the agency spent finalizing 
the rule. \26\ If H.R. 991 is enacted, the USFWS may indeed need to 
amend the listing rule to clarify the status of polar bear trophies 
killed prior to listing, requiring additional agency resources.
---------------------------------------------------------------------------
    \25\ Id. at 7.
    \26\ Id.
---------------------------------------------------------------------------
    After considering the arguments of the parties, Judge Wilken of the 
Northern District of California denied the request. Judge Wilken 
specifically noted that hunters had fair warning of the impending ESA 
listing and ``assumed the risk. . .they would be unable to import their 
trophies'' by continuing with their hunts. \27\
---------------------------------------------------------------------------
    \27\ Order Concerning the Importation of Polar Bear Trophies, CBD, 
et al. v. Kempthorne, N.D. California, Civ. No. 08-1339 (J. Wilken, 
July 11, 2008).
---------------------------------------------------------------------------
    The trophy import issue is now before the federal District Court 
for the District of Columbia. \28\ The trophy hunters have filed 
several consolidated lawsuits on this issue of import of polar bear 
trophies, and these lawsuits are currently being litigated. \29\ 
Further, the trophy hunters have also challenged the ESA listing 
itself, in the same federal court. \30\ If the polar bear hunters are 
successful in these lawsuits, the import of polar bear trophies 
(including those currently being stored in Canada and at issue here) 
will be allowed again. Briefing in both the trophy import and the 
listing lawsuits has been completed, and the court has already heard 
oral argument on motions for summary judgment. Thus, the cases are ripe 
for final ruling by the court, and such ruling could be issued at any 
time.
---------------------------------------------------------------------------
    \28\ In re Polar Bear Endangered Species Act Litigation, D. D.C., 
Misc. Action No. 08-0764.
    \29\ Safari Club Int'l, et al. v. Salazar, et al., No. 08-881; 
Hershey v. Salazar, et al., No. 09-324; Kreider v. Salazar, et al., No. 
09-325 (all consolidated within Misc. Action No. 08-0764)
    \30\ In re Polar Bear Endangered Species Act Litigation, D. D.C., 
Misc. Action No. 08-0764.
---------------------------------------------------------------------------
    The trophy hunters availed themselves of a judicial forum for their 
complaints, and have already been turned away once. New litigation on 
the issue has been brought by the trophy hunters and is near 
completion. Valuable court resources and time have been expended on the 
litigation, and now the hunters are coming to Congress before the 
judicial process is complete. It is a waste of congressional time and 
resources to weigh in on an issue that the federal courts may soon 
decide.
USFWS Denial of Special Exemption Permits
    After the ESA listing was published, and the federal court in the 
Northern District of California rejected the trophy hunters' request 
for an order allowing imports, several hunters applied for import 
permits under the ``enhancement of survival'' provisions of the MMPA. 
Although the MMPA generally prohibits the importation of ``depleted'' 
species, it provides a specific and narrow exemption to this 
prohibition whereby a depleted species may be imported if the 
importation is likely to ``enhance[e] the survival'' of the species by 
``contribut[ing] significantly to...increasing distribution'' of the 
species. \31\
---------------------------------------------------------------------------
    \31\ 16 U.S.C. Sec. Sec. 1371(a)(3)(B), 1374(c)(4).
---------------------------------------------------------------------------
    The USFWS and the Marine Mammal Commission (``MMC'') determined 
that the hunters were not entitled to these permits. \32\ The FWS 
recognized that Congress maintained this narrow exception to ensure 
that only importations that actually benefit species are permitted. If 
hunters were allowed to circumvent this process, Congress's carefully 
limited exceptions would be rendered meaningless. Nevertheless, the 
trophy hunters are now asking Congress to give them the preferential 
treatment that they did not receive from the USFWS.
---------------------------------------------------------------------------
    \32\ See MMC Comments available at http://www.mmc.gov/letters/pdf/
2008/polarbear_121608.pdf (recommending that FWS adopt the position 
``that Congress never intended sport hunting to be considered an 
enhancement activity'').
---------------------------------------------------------------------------
H.R. 991 Would Harm Polar Bear Conservation Efforts
    H.R. 991 is essentially an attempt by trophy hunters to repeat 
history and amend the MMPA to allow the importation of sport-hunted 
polar bear trophies, as they did 17 years ago. The original Act of 1972 
barred the importation of all marine mammals and their parts, including 
polar bears--the same law that prohibits American citizens from 
bringing whale meat back from Japan or seal fur back from Canada. 
However, in 1994, trophy hunters and their congressional allies 
successfully punched a gaping loophole through the law, which allowed 
hunters to import polar bear trophies if the bears were taken in Canada 
from certain ``approved'' populations under a ``scientifically sound 
quota'' system. \33\ Still unsatisfied with this newly created 
opportunity to import polar bear trophies, in 1997 hunters convinced 
Congress to allow import of trophies taken before the 1994 loophole was 
enacted, as long as the trophy was hunted legally in Canada--even if 
the hunting did not meet the 1994 loophole's conservation requirements. 
\34\ Finally, in 2003, trophy hunters sought and received yet another 
``grandfather-in'' exemption. Even though hunters and hunting guides 
were well-aware of Congress' 1994 restrictions on imports, USFWS did 
not issue regulations implementing the import loophole until 1997. 
Hunters argued that this created ``confusion,'' and again convinced 
Congress to permit the otherwise unlawful import of any bear hunted in 
Canada before the regulation's published date of February 11, 1997, 
even if the 1994 loophole's conservation measures were not met. \35\
---------------------------------------------------------------------------
    \33\ 103 Pub. L. No. 238, Sec. 4, 108 Stat. 532 (1994).
    \34\ 105 Pub. L. 18, 111 Stat. 158 (1997).
    \35\ 108 Pub. L. 108; 117 Stat. 1241 (2003); see Testimony of 
Marshall Jones of FWS on H.R. 4781 (July 13, 2002).
---------------------------------------------------------------------------
    And they made the same arguments back then that they're making now. 
Law-abiding hunters shot their polar bears legally in Canada, they 
said, and the trophies were just sitting in storage, so it wouldn't 
hurt just to let them transport those already-dead bears across the 
border. The problem was that this policy change opened the floodgates 
to more and more American trophy hunters trekking north to get the 
prized bear--many of them competing for the Safari Club's ``Bears of 
the World'' award--and in that decade and a half, more than 900 polar 
bear trophies were imported from Canada.
    Now that the polar bear has been listed as a threatened species, 
the ban on imports has been restored. But trophy hunters are making the 
same tired argument that they made in 1994. H.R. 991 is being cast as a 
private relief measure to help 41 hunters bring in their personal 
trophies, but in reality the legislation would roll back a federal 
policy and provide even more incentive for American trophy hunters to 
accelerate the killing of species with pending ESA listing decisions 
and, when import of the trophies are barred, make the same personal 
appeal to Congress over and over again.
Importing Trophies is Inconsistent with Conservation
    Furthermore, although the MMPA generally prohibits the importation 
of depleted species, the law provides specific procedures for importing 
these animals. A depleted species may be imported if the importation is 
likely to ``enhance'' the species' survival by ``contribut[ing] 
significantly to. . .increasing distribution'' of animals. \36\ 
Congress crafted this narrow exception to ensure that only importations 
that actually benefit species are permitted. If trophy hunters are 
allowed to circumvent this process, Congress's carefully limited 
exceptions are rendered meaningless.
---------------------------------------------------------------------------
    \36\ 16 U.S.C. Sec. 1374(c)(4)(a)(i)
---------------------------------------------------------------------------
    The U.S. does not allow sport hunting of polar bears in Alaska, and 
only Alaskan natives are allowed to hunt these bears for subsistence. 
American trophy hunters cannot legally shoot polar bears at home, and 
should not be encouraged to add to the mortality of polar bears in 
other countries. Only a few dozen Americans participate in the trophy 
hunting of Canadian polar bears. The millions of sportsmen and gun 
owners in the U.S. are not impacted by this issue.
    The MMPA had barred the import of sport-hunted polar bear trophies 
between 1972 and 1994, and that ban has now been restored. The MMPA 
does not allow trophy imports of walruses, whales, or other marine 
mammals. It would therefore be inconsistent with American conservation 
law to allow the importation of polar bear trophies.
    Additionally, trophy hunting is harmful to the survival of polar 
bears. Polar bears rely on high adult survivorship to maintain 
populations. Sport hunters target the largest and most fit animals and 
are not always able to distinguish females from males in the field. 
These animals may be critical to ensuring the survival of polar bear 
populations under stress from climate change and habitat degradation. 
Before the passage of the MMPA, sport hunting was identified as the 
primary or sole cause of polar bear population declines in places such 
as Alaska. Once sport hunting was prohibited in the U.S., some 
populations began to recover.
    Commercial hunting is an incentive for higher polar bear mortality. 
An American trophy hunter can pay between $40,000 and $60,000 for a 
polar bear hunt in Nunavut. Because the sport hunts are highly 
lucrative, Canadian wildlife managers may feel pressure to increase 
quotas beyond sustainable levels. In 2005, Nunavut increased hunting 
quotas by 29%, despite concerns expressed by polar bear researchers 
that the increase in take could be harmful to the populations.
    Finally, there is no evidence that money charged for polar bear 
hunting permits is essential to local communities or wildlife 
conservation. An August 2005 article in the Nunatsiaq News, a Nunavut 
newspaper, concluded that ``most of the [financial benefits from sport 
hunts] never reach Inuit hands, and when they do, those earnings vary 
substantially from community to community.'' \37\ Even if a portion of 
the money went to polar bear conservation, it is still unsustainable 
for sport hunters to kill a species that is threatened by climate 
change and vanishing habitat. Protecting their habitat and eliminating 
the financial incentives to increase the quotas can save these bears--
not money derived from killing them.
---------------------------------------------------------------------------
    \37\ Thompson, John, Boost price for polar bear hunt, researcher 
urges, (Aug. 26, 2005). http://www.nunatsiaqonline.ca/archives/50826/
news/nunavut/50826_12.html
---------------------------------------------------------------------------
    And even if the 41 sport-hunted polar bear trophies affected by 
H.R. 991 somehow aided polar bear conservation efforts, which is 
unlikely, there would be no additional conservation value by allowing 
their importation. Denying these imports would not lead to a refund for 
hunters, who knew the financial risks they were taking when they paid 
to shoot the bears.
Conclusion
    In summary, the passage of H.R. 991 would reward a few dozen 
individuals who gambled at their own risk, and attempted to game the 
system knowing that the door would soon be closed to polar bear trophy 
imports, as it was previously for more than two decades. The ESA and 
MMPA protections should not be subverted simply to pacify a handful of 
trophy hunters who, with full knowledge that the species would likely 
be listed because of serious threats to its survival, chose to ignore 
all warnings from the U.S. government, animal protection organizations 
and hunting groups, and pursue a bearskin rug for their trophy room. 
It's a self-inflicted problem, yet they are asking Congress for a 
government bail-out.
    We shouldn't allow the importation of threatened or endangered 
species trophies just because they're stockpiled in a warehouse and the 
animals have already been killed. Whether its elephant ivory or polar 
bear pelts, each time we allow trade in these protected species, we 
resuscitate the market for these items, increase the incentive for 
poaching and sport hunting, and make it harder for law enforcement to 
crack down on trafficking in wildlife contraband. Thus, even if these 
41 trophies in question don't harm polar bear populations since the 
animals are already dead, the cumulative impacts of shooting more and 
more bears, putting the trophies in storage, and continuing to ask 
Congress to allow imports over and over again, are severe and set a 
dangerous precedent.
    Congress should resist the temptation to interfere with the ongoing 
legal cases the trophy hunters themselves chose to initiate, and should 
reject this same pattern of behavior that was used to amend the MMPA in 
1994 and allow the commercial killing of hundreds of polar bears for 
trophies. Allowing imports, driven by personal stories, has always been 
the tack of the trophy hunting groups and it's precisely what has 
allowed all of this killing by Americans to occur. Congress should send 
a strong message that this behavior will not be tolerated and that 
imperiled species deserve protection. In order for the MMPA protections 
and ESA listings to have meaning, we strongly urge the Subcommittee to 
reject H.R. 991.
                                 ______
                                 
    Mr. Sablan. Yes, sir. Thank you, Mr. Chairman. I have five 
minutes and I have several questions. Director Gould, good 
morning. We have to stop meeting like this, but first, I want 
to thank you and Secretary Salazar for your very strong support 
of H.R. 670.
    And like I said in my opening statement, and in my 
statement during the passage of H.R. 670 in the last Congress, 
submerged land is very important and crucial to the people of 
the Northern Mariana Islands, and it actually enjoys wide 
support.
    But just so we are all clear, and if you could give me a 
yes or no answer, is it the mission of the Obama Administration 
that you support the transfer of all the submerged lands in the 
Northern Mariana Islands to the people of that Commonwealth?
    Dr. Gould. Yes.
    Mr. Sablan. Thank you very much, Dr. Gould. Very good. On 
H.R. 991, Dr. Gould, in your testimony, you said that in 
January of 2008 that the Service, the Fish and Wildlife 
Service, fielded a number of telephonic and e-mail 
communications about the proposed polar bear listing, including 
listings, including listings from hunters, Canadian 
taxidermists, and the media, what did you tell them regarding 
the proposed listing?
    Dr. Gould. At that time, we tried to tell everybody out 
there who might have an interest in this particular listing 
that the listing was imminent. So we got the word out, and we 
felt that we did a pretty good job talking to both the hunting 
community and the environmental community, and just let them 
know that something was going to happen.
    We could not give them specific dates, and we couldn't give 
them a specific answer. Either they would be listed or not 
listed. That is not what we do. We just wanted to let people 
know of the imminence of the issue.
    Mr. Sablan. OK. And when Judge Wilken ordered the 
Department of the Interior to publish the final listing rule by 
May 15, she waived the 30 day notice or grace period under the 
APA, because in her opinion, and I quote, ``affected parties 
will have had adequate notice that publication was 
forthcoming.''
    Particularly given your announcement on January 7th, 2008, 
that the listing would be coming within 30 days do you agree 
with the Judge that affected parties had adequate notice? If 
not, what more could the Service had done?
    Dr. Gould. We believe that people had adequate notice of 
the imminence of the imminent decision coming, and not what the 
decision was, but a decision was coming.
    Mr. Sablan. So, in your testimony, Director, you also said 
that on May 5th, 2008, that the Service contacted those 
individuals who had been issued an import permit, but had not 
already done so, had not already done the importing.
    And to inform them the ESA listing would go into effect on 
or before May 15th. At that time, were the permitters informed 
that the trophies must be imported before the listing date?
    Dr. Gould. Yes, they were.
    Mr. Sablan. And would the completed permit applications 
submitted after May 5th have had enough time to be approved by 
May 15th, yes or no?
    Dr. Gould. No.
    Mr. Sablan. All right. Thank you very much, Director. Mr. 
Flocken, yes, sir, good morning. Your testimony mentioned that 
H.R. 991 sets a bad precedent. That is a very tough statement, 
and so can you elaborate on that point? We are running out of 
time, and so----
    Mr. Flocken. If the H.R. 991 were to pass, it would show 
the world that the United States, while trying to protect 
endangered species, is willing to let Americans hunt them and 
import them by carving out exceptions, which could open up a 
flood gate.
    There would be no reason for other hunters not to kill 
endangered species, and expect that an exception would be made 
down the road for them to bring these back into the United 
States.
    Mr. Sablan. And since the Federal Court has already ruled 
to not allow the import these polar bear trophies, and hunters 
have filed several consolidated lawsuits that are pending in 
Federal Court right now. If they are successful, then the 
import of these trophies will be allowed.
    And should we be spending time and resources on an issue 
that may soon be decided by the court like we are doing now?
    Dr. Gould. The timing of this could be questioned, most 
definitely. However, since the bill is before us, we stand 
against H.R. 991 and hope that it will not pass.
    Mr. Sablan. That is my time for now, Mr. Chairman. I yield 
back.
    Mr. Young. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Flocken, what is 
the--let us say that 991 is not approved. How does that help 
these 41 dead polar bears?
    Mr. Flocken. It upholds our laws involving endangered 
species.
    Mr. Flores. How does it help these 41 dead polar bears?
    Mr. Flocken. The 41 dead polar bears, whether or not they 
are dead, it is not the issue at hand. They can legally be 
killed in Canada. It is the only country in the world that 
still allows them to be killed, but the United States does not 
allow the import of an endangered species.
    Mr. Flores. I understand that.
    Mr. Flocken. But that is the way to conserve species.
    Mr. Flores. What empirical evidence do you have that the 
enactment of 991 is going to hurt other endangered populations?
    Mr. Flocken. Well, it set the precedent that the----
    Mr. Flores. Letting 41 people bring their polar bears, 
their trophies, back to this country, how is that going to 
hurt? What tangible empirical proven evidence do you have that 
this is going to help other endangered populations? Not 
conjecture, but real evidence?
    Mr. Flocken. I can't predict the future, but it would 
undercut existing conservation laws.
    Mr. Flores. That is what I thought. OK. I would put it this 
way to you. Taking positions like this undermines the 
credibility of conservationists all over the world. This is a 
very impractical position to take.
    I support 991, and I think it is the right thing to do. I 
think that these hunters got caught in an unfair position, and 
I have people coming to see me every day. They come in and say 
that because the regulatory regime that we have today is 
hurting their businesses, and their employees, their 
households, their earnings, their jobs.
    And this is one of the worst that I have seen of all of the 
regulations that have passed. Anyway, I would say that if I 
were in your shoes, I would drop the opposition to this.
    Mr. Smith, I am just dismayed that the Federal Government 
has put you in this position, and I yield back.
    Mr. Young. The good lady, Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. Director Gould, 
first, I want to thank you for your positive remarks on Bill 
H.R. 1670. As you are aware, currently the Sikes Act includes a 
pilot program, or invasive species management for military 
installations on Guam.
    Now, in the 111th Congress, I introduced a similar version 
of H.R. 1670, which is called the Sikes Act Amendment that 
would expand this pilot program to be Integrated Natural 
Resources Management Plans at all the military installations.
    Last year, this Subcommittee held an oversight hearing on 
that legislation, in which representatives of DoD, and the 
United States Fish and Wildlife Service, favorably testify.
    Both departments recognize the importance of identifying 
and managing invasive species before they become significant 
management and budgetary challenges, and they expressed a 
willingness to work with this committee to expand this invasive 
species management pilot program.
    Now, Director Gould, is the Fish and Wildlife Service still 
willing to work with the Committee to expand that pilot 
program?
    Dr. Gould. The importance of invasive species, of course, 
all over this country is well noted, and we appreciate the fact 
that you have concerns about this national problem.
    And the Service recommends that any broadly applied action 
related to invasive species focus primarily on prevention and 
rapid response to invasive species, and we would be willing to 
work with the Committee, and work with all of the partners that 
are interested in this issue to come up with processes that 
will help us, and that won't be burdensome from a financial 
perspective.
    I know that there are concerns about that, and processes 
that will ultimately result in some successes to deal with some 
of these very touchy issues, such as----
    Ms. Bordallo. Yes. So, Director Gould, for the Committee, 
and to be recorded, the answer is in the affirmative?
    Dr. Gould. Yes.
    Ms. Bordallo. Thank you. And I yield back, Mr. Chairman.
    Mr. Young. Thank you, Madam. Mr. Landry. Hello, you are up, 
Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman. Dr. Gould, is there an 
agency in this Administration that does not move the goal posts 
every time an industry or an individual tries to do something? 
I have never seen something like this in my life.
    You know, you all continue, and it is amazing how you all 
will where a rule will be written, and you all will turn around 
and move that goal post. Do you all have like a bet going on up 
there amongst the hierarchy that says let's see who can move 
the goal post any further? I mean, this is ridiculous. It is my 
understanding, and Mr. Flocken, it is my understanding that if 
we import those bears, $41,000 will go to the polar bear 
conservation fund. Is that not correct?
    Mr. Flocken. Correct.
    Mr. Landry. Are you willing to pony up $41,000 for that 
polar bear conservation fund personally?
    Mr. Flocken. The world's top specialist on polar bear 
conservation have identified over-exploitation of polar bears 
as one of its threats.
    Mr. Landry. But that does not answer the question. This 
gentleman right here is willing to give a thousand dollars. How 
much are you personally willing to give? Do you know who are 
the biggest conservationists in this world? It is a hunter. It 
is hunters.
    Hunters do more for the conservation of animals than anyone 
else. Anyone else. It is absurd that this gentleman sitting 
next to you played by the rules. In fact, according to the 
amended version of Section 104, he provided documents showing 
that the bear was legally taken from Canada. Canada monitored 
and enforced the hunting program.
    Their sports program is based on scientifically sound 
quotas. Well, let me ask you this question. Do you think that 
Canada's science is flawed?
    Mr. Flocken. Canada is the only country in the world that 
still allows the sport hunting of polar bears. The world's 
leading polar bear experts----
    Mr. Landry. I yield the balance of my time, Mr. Chairman.
    Mr. Young. Don't. He is wrong. That is typical. Greenland 
and Russia also allow the hunting of polar bears.
    Mr. Flocken. Sport trophy hunting.
    Mr. Young. Sport trophy hunting. Russia just opened it up. 
Read your books.
    Mr. Flocken. That is the way----
    Mr. Young. I am a hunter and you are not. Read your books.
    Mr. Flocken. I read the quota two weeks ago, and----
    Mr. Young. I did not ask you a question, and don't comment 
until I ask you. Go ahead.
    Mr. Landry. Mr. Flocken, what I don't understand is that 
Canada--I mean, I would think that Canada--which I have a lot 
of confidence in, but I would think that Canada's conservation 
programs are pretty sound.
    I have hunted up there. I don't understand why we can't 
have a discussion with Canada, and understand why they may be 
allowing it, and we are not allowing this gentleman to import 
his polar bear that he already killed.
    They are not asking, or the hunting groups are not asking 
us to import additional trophies. We have 41 bears in Canada 
that are doing no one any good. In fact, it is detrimental to 
the polar bear research foundation, because he did not get to 
donate his thousand dollars to it if they would let his bear 
in. Can you help me?
    What is the big deal on letting those 41 bears come in to 
this country?
    Mr. Flocken. In the opinion of IFAW, the best thing that 
the United States can do to continue to address the saving of 
endangered species is by using our current laws, such as the 
Endangered Species Act, and the Marine Mammal Protection Act, 
and banning the import would stop and address that threat.
    Mr. Landry. Dr. Gould, Is Canada science flawed?
    Dr. Gould. There is scientific disagreement regarding the 
status of populations in Canada. There are opinions on the 
positive side, and there are scientific opinions on the 
negative side.
    Mr. Landry. But is it flawed?
    Dr. Gould. Not that I am aware of.
    Mr. Landry. So if it is not flawed, if their science is not 
flawed, and we believe that they have--does Canada have the 
ability to manage its wildlife property, or does the United 
States need to go into Canada and manage theirs?
    Dr. Gould. Canada is one of the best conservation partners, 
management partners, that we have.
    Mr. Landry. Based on that answer don't you agree that we 
should let those polar bears in?
    Mr. Flocken. No, I do not. I believe that the import of 
endangered species and banning it is the best way that we have 
to conserve endangered species in the United States.
    Mr. Landry. I am out of time.
    Mr. Young. Thank you, Mr. Landry. Does anyone else have any 
questions? I have some questions. Mr. Gould, one of the things 
that bothered me is that you mentioned the fact of the 
Endangered Species Act, but do we import other Endangered 
Species Act that have been harvested?
    Dr. Gould. Yes, we do.
    Mr. Young. We do? And why can't we import the polar bears, 
because it is?
    Dr. Gould. it is a marine mammal.
    Mr. Young. A marine mammal. So all we are doing--but the 
Endangered Species Act is where we do actually and can import 
other species that are endangered?
    Dr. Gould. Under the Sikes program, yes.
    Mr. Young. The present population of polar bears in your 
estimate is what?
    Dr. Gould. I don't have that information right with me, 
sir, but we can get it for you.
    Mr. Young. Well, for your information, the present evidence 
that we have is 23 thousand, and up to 25 thousand polar bears, 
and I have said this before in the last time that we had this 
hearing, I killed one of the last polar bears in Alaska in 
1964, and we had approximately five thousand polar bears.
    And these polar bears were put on the endangered or 
threatened list--I guess they are threatened or endangered--
which one--threatened--because of so-called melting of their 
ice, which is nonsense.
    The reality is that 11 thousand years ago, we had no ice in 
the North Pole, and I think the Captain can verify that, and 
the polar bears survived. And yet we put them on a supposedly 
habitat loss, not from a hunting loss. So I am just curious. Do 
you believe that there is any conservation by any of these 
bears in Canada now?
    Dr. Gould. The actual polar bear hides? Is that what you 
are talking about?
    Mr. Young. Yes. Is there any conservation effort for them?
    Dr. Gould. No.
    Mr. Young. OK. Good. We have already covered what Mr. 
Landry did, and we have already covered this $41,000 that would 
occur, and if it were not for a court order which required an 
immediate effective date of the listing, how long would the 
Fish and Wildlife Service have given the hunters who legally 
hunted a bear prior to May 15th, and applied for a permit, how 
long would you give them to bring in their trophies?
    Dr. Gould. We would have actually published the permit in 
the Federal Register, the notice of the availability of the 
permit, and given them a 30 day public comment period, and then 
we would have made our decision based on that, the Federal 
Register process.
    Mr. Young. Does the Service agree that anyone that hunts 
after the proposed rule issued in 2007 was hunting in bad 
faith?
    Dr. Gould. I don't know exactly what you mean, but I don't 
think that people were hunting in bad faith in 2007.
    Mr. Young. OK. They were hunting legally then?
    Dr. Gould. Yes, sir, they were.
    Mr. Young. Did the Service at any time tell the hunters 
that a hunt should not occur due to the immediate threat 
listing on the polar bear?
    Dr. Gould. No, we didn't. All we could do is notify them 
that an action was being considered at that time.
    Mr. Young. So if I was a hunter, and I am doing this 
kindly, but if I as a hunter, and I had a booked hunt, and the 
Canadian government agreed with my hunt, and issued the 
license, and the tag, and yet I did not know--you said there 
could be a listing, but there was no definite listing of 
threatened. That had not been decided by that time?
    Dr. Gould. No.
    Mr. Young. OK. Good. Mr. Smith, what type of communications 
have you had with the Fish and Wildlife Service up until after 
your hunt? Until and after.
    Mr. Smith. I had contacted the United States Fish and 
Wildlife about the permitting process. I was told that I could 
pre-apply, which I did. I was also informed that whenever I 
took the bear, if I would go ahead and fax the information to 
them, they would get the permitting process started before I 
left Canada.
    What was amazing to me was that I got no indication that it 
was going to take effect immediately. Even if there was a 
ruling, there was to be a period of time, which I understood to 
be 30 days or so, before the ruling would take effect.
    And in that time period, we would be able to complete the 
United States Fish and Wildlife permitting process as the 
gentleman just said. One of the other things that was brought 
up, and which I heard the gentleman to your left there say, is 
that there was communication on May 5th, and that is the first 
time that I have heard anything about that, and it would have 
been extremely difficult for me to get that considering that I 
was on the ice on May 5th.
    So there would have been no way for me to get any 
communication if it had been sent out, but that is the first 
that I had heard of it, even after coming back. The only 
communication that I have had with the United States Fish and 
Wildlife since then was to report that they were going to hold 
our application until there was a determination at a later date 
whether they should send the checks back, and the application 
back, which they did.
    There was a certain amount of time and they finally sent it 
back and said that we would have to reapply as soon as this 
worked its way through the process.
    Mr. Young. Did the Service at any point indicate with 
certainty that the polar bear would be listed as threatened and 
you should not attempt to hunt?
    Mr. Smith. No, sir.
    Mr. Young. OK. How did you react to statements made that 
you had exercised poor planning with regard to your polar bear 
sport hunt?
    Mr. Smith. I don't agree with it being poor planning, 
because that is kind of like driving down the road at 70 miles 
an hour and you are thinking, you know, one of these days they 
may change the speed limit here.
    It is not against the law to drive 70 miles an hour at that 
point. If they change it, then it could become against the law. 
I understand that part. But what has happened to the time frame 
that was supposed to be implemented before this was changed. 
That is one of my big questions, and why is there so much 
opposition to these dead bears.
    Mr. Young. Thank you for your patience again. I am amazed. 
I think that there is nothing more frustrating for interest 
groups to try to, I think, misinterpret the law. We did this on 
the Graham-Grumman tax bill. We made it retroactive, and it 
broke and hurt a lot of people in this country because we 
changed the law.
    And as far as the precedent goes, and as far as this 
legislation, this is not a precedent. We did this in 1994 for 
the same reason, and I think that we have to recognize that if 
you operate under a law in another country, especially when we 
are importing a species of animals that are endangered, that 
argument does not hold up. Does anyone have any other 
questions? Mr. Garamendi, you are allowed to sit, and Mr. 
Garamendi, you can ask questions.
    Mr. Garamendi. Thank you, Mr. Chairman. Thank you very 
much. I appreciate the courtesy extended to me to allow me to 
participate in this hearing, even though I am not a member of 
the Subcommittee. I do appreciate that.
    You and I have had the experience over the years to deal 
with these kinds of issues when I was at the Department of the 
Interior, and now more recently in this job. The Marine Mammal 
Protection Act is designed to protect those species that are 
threatened, and it is done in a variety of ways.
    One way is to stop the importation, and any exception to 
that opens the door to further taking of those species. Your 
line of questioning, Mr. Chairman, seems to take us to the 
point of trying to understand the timing of the listing, and 
the sports hunter, and how you fit into that timing.
    My question therefore goes to the representative of the 
Fish and Wildlife Service. Could you give us the timing, the 
sequencing of the timing, on when was the--we understand that 
the listing was made on a date specific, and the normal 30 day 
period of time was not provided.
    But wasn't there a period of time prior to that in which 
this issue was being discussed, debated, noticed? Could you 
give us some sense of the timing here?
    Dr. Gould. Around January of 2008, we were aware that the 
issue was imminent, and that there were some decisions that 
needed to be made, and so that is at the point that we started 
informing folks that there was a decision coming forth soon.
    And then, of course, when we knew of the decision, and that 
it was going to be May 15, we notified people then when we knew 
about the decision, and that it had to be immediate because it 
was a court ordered decision.
    Mr. Garamendi. OK. Let me go back over that, and if you 
would, please, use the microphone, and pull it a little closer 
to you when you respond. So this issue emanated from a court 
case; is that correct?
    Dr. Gould. That is correct.
    Mr. Garamendi. And that court case was under way for some 
time, as is most court cases?
    Dr. Gould. Yes. I don't know exactly when it was filed, or 
how ago it was filed.
    Mr. Garamendi. So, in January, there was--you began your 
process of listing----
    Dr. Gould. Of notifying people, yes.
    Mr. Garamendi. OK. And then when did you actually list?
    Dr. Gould. May 15th.
    Mr. Garamendi. OK. So, basically what, four-and-a-half 
months. And was that widely noticed, or was it secret, or----
    Dr. Gould. The notification that a decision was going to be 
made was not a secret, but what we couldn't actually notify 
people of was the decision, whether it was listed or not 
listed.
    Mr. Garamendi. But the Court case was known, and presumably 
the hunting community knew that this was an issue, and that 
should it be listed that there would be--that importation would 
not be allowed.
    Dr. Gould. We had broad notification of the hunting 
community, yes.
    Mr. Garamendi. OK. I think that there is--sir, I don't know 
what your situation is, and you may have been caught up one way 
or another in this--from your point of view--unfortunate 
situation.
    But this was not a secret. This was well known, even those 
of us who don't hunt polar bears or trophy hunt, knew that this 
was under way, and that this would likely happen. And it is 
very, very important for us to maintain the importation 
restrictions, because that is the only way that we can enforce 
this.
    Even though the hunting may be legal in Canada, the 
importation must remain illegal if we are to protect the 
species as best we can, and we can't tell Canada what to do, 
but we can certainly tell the people that they can't import.
    Also, the question has been raised about whether a taking 
is a taking of private property. Nobody has an unlimited right 
to import anything into the United States. That is simply not 
the case.
    You may own a kilo of cocaine, but you cannot import it 
into the United States, at least legally. Yes, it may be your 
personal property, but that argument just doesn't fly. So I 
would just say that in this particular case that we ought not 
be passing this exemption to this very, very important law that 
does and has over the years protected numerous species. Mr. 
Chairman, I thank you for the courtesy.
    Mr. Young. Thank you. If I had known that you were going to 
take that tact, I probably would not have recognized you and 
let you sit. I will tell you that right up front.
    Mr. Garamendi. Mr. Chairman, you are too kind to do that.
    Mr. Young. Yes. Number one, the date, I believe you said, 
was May 15th, Dr. Gould?
    Dr. Gould. Yes, sir.
    Mr. Young. And these bears were shot in April or March, 
March or April? The last one was shot, I believe, on April 8, 
and yours was shot May 11. So when the issuance came out was on 
May 15th, and the law was the law. You talk about the law, and 
no government has a right to take away the individual's right 
by changing the law if something was done lawfully before.
    That is the thing that I don't understand, and now Dr. 
Gould is caught in this box, and I am not blaming you. I am 
blaming the interest groups, and the stupidity of the 
Secretary, which was my Secretary, of putting it on the 
threatened species anyway, because the instance of those that 
are trying to stop our whole country from running. Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman. Mr. Flocken, let's try 
this again. Do you believe in conservation?
    Mr. Flocken. Yes.
    Mr. Landry. And don't you believe that we should always use 
all of the tools necessary to support conservation?
    Mr. Flocken. I believe you should approach conservation the 
most likely way to help the species.
    Mr. Landry. OK. But you certainly would want to maximize 
the tools available to manage and conserve those species; is 
that not correct? I mean, why would you not use a tool I guess 
would be the question.
    Mr. Flocken. I think the largest priority in this situation 
is addressing the threats to endangered species.
    Mr. Landry. So you wouldn't choose to use all the tools. 
You would leave some on the side, even if you had the ability 
to conserve the species, and you just would not----
    Mr. Flocken. You mean contrary to protecting the species?
    Mr. Landry. No, no, I am saying that if there is a tool 
used to conserve a species would you not utilize that tool? Yes 
or no; it is real easy.
    Mr. Flocken. Not if it is contrary to the conservation of 
the species.
    Mr. Landry. No, no, no, this would not be contrary. This 
would be founded in science. Would you use that tool?
    Mr. Flocken. Well, in this situation----
    Mr. Landry. Yes or no?
    Mr. Flocken. Not in this situation if in fact----
    Mr. Landry. We are not even talking about that. I am just 
asking a question. It could be lions. It could be elephants. If 
there is a tool necessary and that can be used to conserve a 
species, would you not want to use that tool?
    Mr. Flocken. If it is not contrary to the conservation of 
the species, correct.
    Mr. Landry. Well, let me just tell you this. There is a 
tool. If there are certain sections in Canada that are over-
populated with polar bears, it is to the benefit of those 
populations to take some of those species. That is what the 
hunter does.
    And that is why the hunter is such a great conservationist. 
He does more for conservation than you do. I hate to tell you 
that. So what we are doing now is we are basically telling 
Canada that we are going to make it difficult on you to manage 
your polar bear populations, because we have looked at the 
polar bear population on a global scale.
    Is that not correct, Dr. Gould? I mean, doesn't Canada 
use--and don't we in the United States--the ability to take 
species in certain areas where the population could be 
detrimental to the species?
    Dr. Gould. Hunting is an accepted conservation management 
tool.
    Mr. Landry. Exactly, and so wouldn't you say that not 
allowing our hunters to go there like they did, and which they 
took. He took that polar bear legally; is that correct?
    Dr. Gould. Yes, sir, he did.
    Mr. Landry. OK. And so now we are not allowing him to just 
bring his trophy in when the United States says yes, you went 
in there and you took it legally, and Canada is one of the 
leading countries in the world in conservation, and in wildlife 
management, and the United States is basically saying, no, 
Canada, you don't know what you are doing.
    We are counting all the polar bears around the world. We 
don't care if your polar bear population is over-populated. 
Those polar bears could starve to death on the ice. We just 
don't have enough anywhere else.
    And to me this is what this is all about, and it is just 
ridiculous. So I just wanted you to know that there is a tool 
out there to save the polar bear, all right? And the gentleman 
sitting next o you does more for conserving the polar bear than 
those commercials that you all run. Thank you, Mr. Chairman, 
and I yield back.
    Mr. Young. Thank you, sir. Captain, you have been sitting 
there patiently. Oh, excuse me, Mr. Sablan, you have a 
question?
    Mr. Sablan. Thank you, Mr. Chairman. Dr. Gould, the Service 
administers several statutes that bans imports under certain 
circumstances, such as the Lacey Act as I understand.
    Under those statutes doesn't the ban on imports generally 
apply regardless of when the animal was killed?
    Dr. Gould. Generally, yes, sir.
    Mr. Sablan. All right. And I need a yes or no answer. Does 
the Service oppose H.R. 991 as currently written; yes or no?
    Dr. Gould. Yes.
    Mr. Sablan. All right. Thank you. Captain Lowell, what 
additional capacity is needed by NOAA to perform the needed 
Arctic hydrographic surveys, and do you know the associated 
costs to that capacity?
    Captain Lowell. Well, every year, we develop a hydrographic 
survey priority list that goes out for five years. Arctic 
surveying is entered into that, and I should point out that the 
Arctic area is vast in size.
    It will take many, many years to completely map or provide 
those geospatial services, but we have a plan in place. So we 
have assets up there every year working on this problem.
    Mr. Sablan. And so you wouldn't know the costs associated 
with this survey?
    Captain Lowell. Well, I know that we are currently spending 
on it, and so basically it is a capacity issue. If you are 
going to put more up there, it is going to cost more money, and 
if you want to do less work, it costs less money.
    Mr. Sablan. All right. Thank you. And, Mr. Myers, I don't 
want you to feel left out, and so I hope that you are enjoying 
yourself. Will the conveyance of the 422 acres of land and 
structures to North Carolina in any way change the functions 
and uses of the hatchery?
    Mr. Myers. No, sir. We have operated the hatchery for the 
past 15 years, and we will continue to operate it in the same 
manner.
    Mr. Sablan. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Young. Thank you, Mr. Sablan. Dr. Gould, did I hear you 
correctly, that you do support the 991? Mr. Gould? You do 
support 991, but you made a caveat in there. Did you bring that 
language with you?
    Dr. Gould. We will support 991 if it clarified that it only 
applied to hunters who submit their permit application and 
completed their hunt prior to the listing.
    Mr. Young. OK. Now, the reason that I asked that question, 
I heard that same comment, and you didn't bring any language 
with you today did you?
    Dr. Gould. No, sir, but we are willing to work with it.
    Mr. Young. Well, willing to work. I mean, our counsel--and 
I have gone to the legislative counsel, and I have gone to 
every counsel, and they say that the way it is written, it 
covers it. So you had better bring me that language within the 
next week.
    Dr. Gould. Will do, sir.
    Mr. Young. OK. So it is clear. OK. Thank you, sir. Captain 
Lowell, did NOAA request any additional funding for the Fiscal 
Year 2012 for the work in the Arctic?
    Captain Lowell. There were no additional requests for funds 
in the Arctic in the President's request for 2012.
    Mr. Young. Well, how can we do the job if you don't request 
it?
    Captain Lowell. Well, we have our existing funds, and so--
--
    Mr. Young. Well, how much work are you doing up there?
    Captain Lowell. Well, we are doing a considerable amount of 
work up there. We have both NOAA assets in place, and we have 
multiple contracts.
    Mr. Young. Well, what contracts are you working with? Do 
you go out and solicit contracts to do that type work?
    Captain Lowell. We have standing contracts in place, and 
every year, we issue task orders against those contracts to do 
work in the Arctic.
    Mr. Young. And you mentioned the Kuskokwim area. Now, I 
hope that you are not talking about really Kuskokwim, because 
that is really an inlet isn't it, and there is not much use to 
study that area, and it has to be outside the peninsula there 
so you get good depth.
    You know, Captain, one of my big interests is that I do 
believe that we are going to have a great challenge in the 
Arctic, because it will again, as it has done in the past and 
thousands of years ago, and not during my lifetime probably, 
but the ice flow will probably be diminished.
    And consequently we need to be able to have the proper 
navigation and the proper ports, which there are only about two 
to my knowledge that are deep enough, because nothing on the 
far North, Barrow or anything in that area, has deep water.
    And there is a great interest by other countries that we 
should get ahead of the curve as I am saying, and where the 
navigation, and for the study of the fish, and the whole gamut 
that is going to challenge this in the future.
    And we are an Arctic nation because of Alaska, and that is 
one of the joys of being a State that does make this nation an 
Arctic nation. It is a great challenge for you and for the 
Coast Guard, and the maritime community as a whole.
    And I hope that you are going to be up to it, and so I am 
suggesting to you that next year, if we can't get this job 
done, that you make sure that you request the money so that I 
don't go out and say--because they will say it is an earmark if 
it comes from me.
    And if it comes from you, it is part of the President's 
budget, and so I would suggest that maybe someone who is higher 
up than you maybe request that money for that Arctic surveying 
work.
    Captain Lowell. I would be happy to carry that message 
forward.
    Mr. Garamendi. Mr. Chairman, I am going to shock you.
    Mr. Young. Really?
    Mr. Garamendi. You are on the right track. You are on the 
right track here. We really do need to have this detailed 
information of the ocean, the nature of the ocean itself, as 
well as the ocean floor. My question to the Captain is what 
technologies are you using?
    I am somewhat familiar with this off the coast of 
California when I was the Chairman of the State Lands 
Commission. We did some very advanced mapping of the ocean 
floors.
    The first piece that was done was why are the waves so big 
at Maverick just south of San Francisco, and I guess that was 
of great use to the surfers with the Maverick competition that 
takes place there.
    But we were using radar technology and the like, and would 
you just describe the technology that you are using?
    Captain Lowell. What you are referring to, of course, is 
general oceanographic observations when you are talking about 
trying to measure the waves, and forecast----
    Mr. Garamendi. We were actually looking at the ocean floor. 
We were mapping the ocean floor.
    Captain Lowell. Well, the technologies that we typically 
use is we use multi-beam sonar, which is an acoustical sensor 
on both small vessels and ships. We also use a tool called 
LIDAR, which is a laser-based system that we use out of 
aircraft.
    There are limitations to that because it does not go very 
deep, but it fills in gaps where the ships are simply 
inefficient to collect information. Other hydrographic services 
may be needed to tighten up the geospatial framework up there. 
We are doing more hypoprecision. Coors are continuing operating 
reference states, and we are installing those up in Alaska, or 
working with our partners up in Alaska to install those 
systems.
    Tides and water levels, we need good vertical control on 
all the work that we do up there. We are installing, I believe, 
four more gauges this year to try to get a better handle on the 
water level around the northern end of the Bering Straits area.
    Mr. Garamendi. Thank you. That was very similar technology 
that we were using in California to map the California Coast, 
off the coast. It is really important. Mr. Chairman, I think 
you are correct about the budget.
    You and I may disagree about why the ice is melting, but 
the fact that it is likely to provide a northwest passage and 
other things going on that heretofore didn't happen, it is 
really important that we do this. So you will have my support, 
and maybe you will give up on the polar bears, and we can do 
this.
    Mr. Young. Let me say that there will be a cold day--never 
mind. Mr. Smith, do you have any comments before I start to 
close this meeting?
    Mr. Smith. No comments, Mr. Chairman.
    Mr. Young. All right. Mr. Flocken, is your group or 
organization support any hunting at all?
    Mr. Flocken. We have no policy for or against hunting 
generally.
    Mr. Young. No policy?
    Mr. Flocken. For or against hunting in general, no.
    Mr. Young. You have not taken a stand against any hunting 
bills?
    Mr. Flocken. We are against unethical hunting in the 
hunting of endangered species.
    Mr. Young. Pardon?
    Mr. Flocken. We are against unethical hunting in the 
hunting of endangered species.
    Mr. Young. Unethical hunting? There was nothing unethical 
about hunting these polar bears. It was done legally. There is 
nothing unethical about it.
    Mr. Flocken. We are against the hunting of these polar 
bears.
    Mr. Young. Yes. Do you support the hunting of polar bears?
    Mr. Flocken. No, we do not.
    Mr. Young. You do not. So that sort of settles the 
question. You do not support the hunting of polar bears, but 
this year the hunts are going forth. It is the only thing 
Americans can't hunt. The Germans are hunting them, and there 
is, I believe--let's see how we have this:
    In the Baffin Bay area, 176; Davis Straits, 66; East 
Greenland, 54; Foxe Basin, 108; the Gulf of Boothia, 74; the 
Kane Basin, 15; Lancaster Sound, I believe that is where polar 
bears are taken, 85; M'Clintock Channel, 3; Northern Beaufort 
Sea, 65; Southern Beaufort Sea, 44; Southern Hudson Bay, 61; 
Viscount Melville Sound, 7; and the Western Hudson Bay, 16.
    So other than the Americans now, it appears that the 
Europeans and other people are doing the hunting. So I can see 
that you are doing a great deal to conserve the polar bears. 
With that, this meeting is adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
